                                        )25(:25'
It is my pleasure to report on the accomplishments of the Office of the Inspector General,
Department of Defense, for the period April 1, 1998, through September 30, 1998. This report
summarizes significant audit and investigative efforts during that period while oversight projects
related to the intelligence community are discussed in a separate Classified Annex.

The Highlights section provides a brief overview of the most significant issues discussed in the
report. Chapter One provides brief updates on what we consider to be the Department’s principal
high-risk areas. We have also included more detailed discussions of two special emphasis areas--
Financial Management and Year 2000 Conversion. Chapter Two contains discussions of other
important audit and investigative efforts that took place during the period.

This past year marked the twentieth anniversary of the Inspector General Act and, as such,
generated some reexamination of the inspector general concept. Our work at Defense, as this
report so clearly shows, underscores what has been proven time and again during the last 20 years
throughout government: that the inspector general community has been an excellent investment
for both the departments it serves and the American taxpayer. The costs of operation for our
organization have consistently been far outweighed by the billions of dollars that have been
returned to the Department as a direct result of our audit and investigative work. It is true that
there have been dramatic changes in the challenges facing inspectors general over the years--the
rapid emergence of computer crime and the year 2000 conversion problem are but two fairly
recent examples. What has not changed, however, is that the work of the inspector general
community remains critical to maintaining integrity and credibility in government. The work
described in this and many prior reports has been an important and, we believe, extremely
productive part of that effort.




                                           Eleanor Hill
                                        Inspector General
This page left blank intentionally
Semiannual Report to the Congress                                                            Highlights




HIGHLIGHTS

INTRODUCTION                During the 6-month period ending September 30, 1998, the Office of
                            Inspector General, Department of Defense (OIG, DoD), continued to
                            place considerable emphasis on the principal high risk areas in the
                            Department: Acquisition, Infrastructure, Information Technology
                            Management and Financial Management.

 Acquisition                The DoD administers $810 billion of open contracts and plans to award
                            $135 billion of new contracts in fiscal year 1999. More can be done to
                            improve acquisition efficiency, reduce support costs and restructure the
                            acquisition programs to affordable levels. A systematic, thorough
                            regimen of audits of all major weapon system projects at regular
                            intervals, plus equivalent audit coverage of all support areas and
                            effective, risk based contract auditing would contribute significantly
                            toward achieving those goals. However, because of increasingly
                            constrained internal and contract audit resources, complex acquisition
                            issues were not reviewed at a level that could be considered prudent.

 Infrastructure             Logistics costs for fiscal year 1999 are estimated at $83.5 billion, which
                            is several billion higher than affordable levels. Despite the wide range of
                            ongoing reform activities, more needs to be done to reduce support costs
                            without degrading readiness or losing the ability to control risk. We
                            believe additional base closure and realignment authority is needed, since
                            the Department cannot afford to carry excess infrastructure indefinitely.

 Information                Although the Year 2000 Conversion problem is clearly the most pressing
 Technology                 current challenge in the information technology area, our continuing
                            deep concerns related to computer system security and acquisition have
                            not abated. Recent audits confirm the seriousness of computer system
                            vulnerabilities and the insufficient priority placed on information
                            assurance. Time-sensitive incidents or threats to the DoD information
                            infrastructure continue to create investigative challenges.

FINANCIAL                   The DoD was unprepared to comply with the statutory requirements for
MANAGEMENT                  audited financial statements. Its accounting systems were designed for
                            funds control, not financial statement reporting. The challenges for DoD
                            system designers, financial statement preparers, accounting policy
                            makers and auditors have increased with each increment of additional
                            law or policy. It is unlikely that the DoD will achieve its current goal of
                            attaining favorable audit opinions on its financial statements for fiscal
                            years 1999 or 2000.

                                                  i
Highlights                                                  Semiannual Report to the Congress




                   Numerous factors contribute to the vulnerability of DoD finance
                   operations to fraud, such as a weak internal control environment, staff
                   turbulence and lack of sufficient fraud awareness training for finance
                   personnel. Congressional hearings in September 1998 graphically
                   i denti fied control weaknesses and t he damage done by a few
                   unscrupulous individuals who exploited those weaknesses.

YEAR 2000          The most fundamental obstacle to an efficient and timely Year 2000
CONVERSION         (Y2K) conversion effort is its magnitude: in August 1998 the DoD
                   estimated it had 2,965 mission-critical information systems and about
                   25,000 others. Decades of laxity in configuration management and
                   system documentation have exponentially compounded the conversion
                   challenge.

                   Under the prescribed Y2K conversion approach, all managers were to be
                   fully aware of the potential threat to their operations by December 1996
                   and actively mobilizing resources to deal with it. The DoD belatedly
                   turned full management attention to the problem, and, therefore, the risk
                   of significant disruptions is much greater than initially foreseen. Over
                   100 audits and inspections have found numerous problems, ranging from
                   inaccurate status reports to a lack of executable contingency plans. Those
                   reviews support the August 1998 assessment by the Secretary of Defense
                   that the Department’s Y2K progress has been insufficient.

OTHER ACTIVITIES   The DoD investigative community continued to emphasize a wide range
                   of critical investigative areas, such as procurement fraud and major
                   health care fraud. Investigations in these areas resulted in 98 indictments
                   and over $134 million in monetary recoveries.

                   Other significant investigations of bribery, pay and allowance fraud,
                   Defens e Resources Managem ent Offi ce f raud, t heft / larceny/
                   embezzlement, environmental fraud, computer intrusion, commissary/
                   subsistence fraud, nonappropriated funds fraud, gratuities, customs
                   violations, forgery, terrorism, drugs and general crimes produced 147
                   indictments and monetary recoveries of over $45 million.

                   In addition, 99 suspensions and 150 debarments of companies and
                   individuals resulted from criminal investigations.

                   The DoD audit community issued 292 internal audit reports and 28,399
                   contract audit reports, identifying nearly $6.1 billion in potential
                   monetary benefits.


                                         ii
Semiannual Report to the Congress                                                               Chapter One




CHAPTER ONE - REDUCE HIGH RISK VULNERABILITIES

INTRODUCTION                 The Department of Defense (DoD) audit, inspection and investigative
                             communities act as agents of positive change in identifying better ways
                             to accomplish the DoD mission by controlling risk, fighting fraud and
                             reducing costs. By closely linking our oversight activities with the
                             Department’s strategic goals and management improvement plans, as
                             well as extensively participating in DoD team problem solving efforts,
                             we provide objective, relevant, practical and timely advice to policy
                             makers, managers and commanders.

HIGH RISK AND                In previous semiannual reports, we discussed the principal high risk areas
SPECIAL EMPHASIS             in the Department—Acquisition, Financial Management, Infrastructure
AREAS                        and Information Technology Management. In addition, we addressed
                             certain focus areas where there are numerous significant audits and
                             investigations—Acquisition Reform, Health Care Fraud, Readiness,
                             Property Disposal and Official Misconduct. In this report, we provide
                             updates on the main high risk areas, with additional detail on Financial
                             Management. We also discuss another focus area—Year 2000
                             Conversion.

ACQUISITION              The DoD is administering $810 billion of open contracts and plans to
                         award $135 billion of new contracts in fiscal year 1999. Reforming
                         acquisition practices to cut costs and lead times remains a principal
                         priority for the Department. Reforms to date have not generated across-
                         the-board savings of sufficient magnitude to revitalize the overall system
                         modernization effort, nor have infrastructure reductions and reforms in
                         other areas enabled significant funding shifts to the modernization
                                            programs. As a result, the Under Secretary of Defense
 “Reforms...have not generated              (Acquisition and Technology) asserted in September
 across-the-board savings...to              1998 that DoD weapon programs were “in a death
 revitalize the overall modernization spiral.” He called for further acquisition reform and for
 effort...”                                 i nf r a s t r uc t ur e cut s a nd w ar n ed t hat p r o g r a m
                                            terminations were likely.

                             We agree that more can be done to improve acquisition efficiency,
                             reduce support costs and restructure the acquisition programs to
                             affordable levels. A systematic, thorough regimen of audits of all major
                             weapon system projects at regular intervals, plus equivalent audit
                             coverage of all support areas and effective, risk based contract auditing
                             would contribute significantly toward achieving those goals. Findings
                             during this period included the need for further improvements to

                                                     1
Chapter One                                               Semiannual Report to the Congress




                  requirements determination processes, a more systematic approach to
                  radio frequency weapon vulnerability and acquisition planning.
                  Unfortunately, due to continuing manpower reductions, both internal and
                  contract audit resources are increasingly constrained. As a result, only a
                  handful of the 146 major weapon systems and a few dozen of the many
                  hundred smaller system programs were comprehensively audited in fiscal
                  year 1998. Internal audit coverage of acquisition issues, such as product
                  quality assurance, program status reports, property administration,
                  requirements determination models and service contracting, is no longer
                  adequate. During the period, only 39 internal audit reports addressed this
                  complex area, and many of these responded to relatively narrowly
                  focused requests that did not address major risks or reform objectives.
                  This is about half of what would be prudent, if resources permitted.

                  We continue to support acquisition reform and are participating in
                  numerous efforts to refine previous initiatives or develop new ones. The
                  DoD has responded aggressively, for example, to audit findings on
                  excessive prices paid for aviation spare parts purchased from commercial
                  catalogues. Excellent training initiatives have been taken and improved
                  guidance issued. We remain concerned, however, about broad attacks on
                  the Cost Accounting Standards, False Claims Act, Truth in Negotiations
                  Act, Defense Contract Audit Agency (DCAA) and other elements that
                  are critical to maintaining the Government’s ability to protect its
                  interests. Generally, such initiatives are related to the otherwise
                  commendable goal of reducing differences between governmental and
                  private sector contracting practices. Although improvement is possible
                  and desirable in many additional areas, it is important to avoid
                  counterproductive measures. Specifically, we oppose any far-reaching
                  curtailment of Cost Accounting Standards coverage or impingement on
                  the independence of the Cost Accounting Standards Board. We further
                  oppose continued downsizing of the DCAA or other impairments to vital
                  contract audit coverage. We do not believe that industry critics of the
                  False Claims Act have brought forward a convincing case that the
                  standard of proof and the penalties prescribed in that statute should be
                  changed.

 INFRASTRUCTURE   During the reporting period, the Deputy Secretary of Defense issued over
 AND SUPPORT      a dozen additional Defense Reform Initiative Directives to implement
 COSTS            cost cutting reforms across a wide range of support activities. Examples
                  of directed measures include disposal or demolition of 8,000 excess
                  buildings with 80 million square feet, a team to develop streamlined
                  contract closeout procedures, realignment of electronic commerce
                  management into a Joint Electronic Commerce Program Office,

                                        2
Semiannual Report to the Congress                                                           Chapter One




                            expanded use of a prime vendor program for facility maintenance
                            supplies and mandatory use of purchase cards for various categories of
                            payments. After a series of audit reports on duplicate management of
                            thousands of supply items by DoD and other Federal agencies, the
                            Defense Logistics Agency agreed to initiate a comprehensive review of
                            outdated agreements with the General Services Administration (GSA).
                            Similar progress is still needed to address commodities bought by the
                            DoD and the Department of Veterans Affairs. In addition, the DoD
                            agreed to our recommendation to plan a pilot effort for joint contracting
                            for depot maintenance of secondary items. Additional action is required
                            to address previous audit findings on demilitarization coding and
                            materiel disposal practices. For example, the DoD continued deferring
                            decisions on how to correct longstanding weaknesses in those areas,
                            pending Defense Science Board advice on disposal policy.

 “...more needs to be done to reduce Despite the wide range of ongoing reform activities,
 support costs without degrading         more needs to be done to reduce support costs without
 readiness...”                           degrading readiness or losing the ability to control risk.
                                         Logistics costs for fiscal year 1999 are estimated at
                       $83.5 billion, which is still several billion higher than affordable levels.

                            We issued 85 audit and evaluation reports covering logistics, health care
                            management, environment, facility construction and other support areas.
                            The Joint Logistics Commanders (JLC) and other managers continued
                            relying on the oversight community to help them implement initiatives
                            efficiently. For example, most DoD internal audit agencies were actively
                            involved in verifying data being used for outsourcing decisions. An audit
                            requested by the JLC indicated widespread noncompliance with
                            requirements for designating a single source of repair for equipment;
                            nearly 109,000 items (27 percent of nonconsumable items in the DoD
                            database) had wrong codes and there were duplicative repair source
                            assignments for 38 of 145 items sampled. Those errors hamper efforts to
                            identify excess capacity and reduce maintenance costs. Another audit
                            indicated that fuel war reserve requirements in Europe were considerably
                            overstated. The DoD agreed with our recommendations to reduce
                            purchases and cut fuel costs for the operating commands by $430
                            million, thus freeing up those funds in the vital readiness accounts.

                            In the facilities area, audits done in response to statutory requirements for
                            reviews of military construction projects for previously approved base
                            realignments and closures continued to help DoD avoid considerable
                            waste. The planning for 71 of 115 projects audited was questionable.


                                                   3
Chapter One                                                           Semiannual Report to the Congress




                              Implementing the recommendations in 63 related audit reports would
                              avoid at least $168 million in unnecessary expenditures.

                                         Previously, the Congress disapproved the DoD request
   “We believe this issue [BRAC
                                         for additional base closure and realignment (BRAC)
   authority] needs to be revisited...”
                                         authority. We believe this issue needs to be revisited in
                                         the future, since the Department cannot afford to carry
                         excess infrastructure indefinitely. At DoD request, we audited the cost
                         and savings experience from the 1993 and 1995 BRAC rounds. Although
                         records were fragmented and incomplete, we were able to ascertain that
                         the positive fiscal impact of BRAC 93, for example, had been
                         underestimated by $3.2 billion. The Department agreed with our
                         recommendations for improved controls to track future results more
                         efficiently.

 INFORMATION               Although the “Millenium Bug” (Year 2000 Conversion) is clearly the
 TECHNOLOGY                most pressing current challenge in the information technology area, the
                           continuing deep concerns related to computer system security and
                           acquisition have in no way abated. In this high-risk area, as in the others
                           discussed above, DoD audit coverage is inadequate. The relatively few
                           audits performed on other than Year 2000 topics confirmed that DoD
                           computer systems remain easily penetrable by hackers, general and
                                                 application controls are lax for systems containing
   “DoD computer systems remain easily sen si ti ve f in anci al and p erso n nel dat a and
   penatrable by hackers....Virtually all        processes for managing acquisition investments
   system acquisition and security audits n eed i m p r o v em e n t . P r es i d e nt i a l D e ci s i o n
   identified significant problems...”           Directives 62 and 63, issued in May 1998, levied
                                                 extensive new requirements on DoD and other
                           agencies to improve the national anti-terrorism posture in general and
                           information security in particular. The Department is also still working to
                           develop an effective alternative to the defunct Major Automated
                           Information System Review Council to control its investment projects
                           and $10 billion annual information technology budget.

                              During the period, 44 information technology audit and evaluation
                              reports were issued, over half of which were Year 2000 related. Key
                              systems addressed by the reports included the Standard Procurement
                              System, Defense Civilian Data Personnel System, Defense Property
                              Accountability System and the Foreign Disclosure and Technical
                              Information System. Virtually all system acquisition and security audits
                              identified significant problems, which suggests that information
                              assurance is not being given sufficient priority. Computer security
                              vulnerabilities also constitute an investigative challenge. To meet this

                                                   4
Semiannual Report to the Congress                                                        Chapter One




                            challenge, the Inspector General, DoD, continued building up the
                            Defense Cr im i nal Invest igati ve Ser vi ce (DCI S) Inform at io n
                            Infrastructure Team, which provides immediate criminal investigative
                            resources to address time-sensitive incidents involving attempted
                            penetration of the DoD information infrastructure. The DCIS also
                            provides information gathering and dissemination activities to assist in
                            the protection of that infrastructure, including assistance in assessing,
                            reporting and correcting vulnerabilities. Additionally, the DCIS has a
                            special agent assigned full time to the National Infrastructure Protection
                            Center in support of Presidential Directive 63.




                                                  5
Chapter One                                    Semiannual Report to the Congress




              This page left blank intentionally




                            6
Semiannual Report to the Congress                       Special Emphasis Area--Financial Management




FINANCIAL MANAGEMENT

                            In this report, we discuss this high risk area of DoD finance and
                            accounting in particular detail.

CHALLENGES                  When the DoD Planning, Programming and Budgeting System was being
                            widely applied in State governments and other Federal agencies during
                            the 1960’s, DoD financial management was considered to be exemplary.
                            Unfortunately, this has not been the case for quite some time. The
                            decentralized management practices and thousands of automated systems
                            used to manage DoD support functions, such as acquisition or logistics,
                            were not integrated with the Department’s finance and accounting
                            systems, or their interfaces were created through very complicated and
                            generally inefficient arrangements. By the end of the 1980’s, the
                            Department realized that incrementally improving each of its
                            decentralized and duplicative finance and accounting operations was
                            impossible. Therefore the controversial decision was made to centralize
                            those operations and systems in the Defense Finance and Accounting
                            Service (DFAS), which was activated in January 1991.

                         The creation of the DFAS coincided with, and was in part motivated by,
                         the beginning of intensive DoD efforts to reduce administrative overhead
                         and support costs. Consolidating hundreds of offices into five centers and
                         16 operating locations, eliminating several thousand manpower positions
                         in the process, has been a paramount goal, and DFAS has succeeded in
                                              meet ing it. As with any restructuri ng of this
 “...the DoD financial management             magnitude, however, the evolution of DFAS has
 community must...better integrate its brought its own problems in terms of workforce
 operations and systems with DoD              skills loss, mixed relations with customers and
 acquisition, logistics and personnel distractions from other challenges. The most visible
 management activities.”                      of these challenges is attaining the capability to
                                              provide audited annual financial statements for its
                         major funds and for the Department as a whole. In addition, the DoD
                         financial management community must break with deeply ingrained past
                         habits and better integrate its operations and systems with DoD
                         acquisition, logistics and personnel management activities. It must also
                         deal with the problems and opportunities posed by the ongoing
                         revolution in information technology, fix internal control weaknesses
                         that leave DoD finance activities vulnerable to fraud and mismanagement
                         and reexamine the processes and requirements that necessitate having a
                         tremendously complicated chart of accounts. Finally, efforts must
                         address the longstanding conviction of many DoD program managers

                                                 7
Special Emphasis Area--Financial Management                                Semiannual Report to the Congress




                              that the official accounting systems do not provide the financial data they
                              need or report it late, with too many errors.

MAGNITUDE OF                  Paradoxically, the scale of DoD financial operations illustrates the
OPERATIONS                    compelling need for financial management reform and the difficulty of
                              reengineering quickly and efficiently.

                              The DoD is the largest holder of U.S. Government physical assets ($1.3
                              trillion), has the most employees (2.2 million), owns the most automated
                              systems (28,000), administers the most complicated chart of accounts
                              and manages the most diverse mix of operating and business functions of
                              any Government agency. In fiscal year 1997, the DoD reported revenue
                              of $270 billion and liabilities of $1.3 trillion.

                              The average monthly DFAS workload includes making 9 million
                              personnel payments, processing 2 million commercial invoices, paying
                              675,000 travel settlements, issuing 550,000 savings bonds, handling
                              340,000 transportation bills of lading, disbursing $22.2 billion and
                              reporting commitments, obligations, expenditures and other data for
                              thousands of accounts.

FINANCIAL                The OIG, DoD, and the Military Department audit organizations devoted
REPORTING                over 600 auditor workyears to reviews of financial statements in fiscal
                         year 1998. This is an unprecedented amount of auditing on a single DoD
                         topic, and nearly 300 internal audit reports have been issued over the last
                         3 years alone on financial reporting and accounting problems. Despite
                         that intensive audit effort and a relatively good record in implementing
                         audit recommendations, DoD progress toward attaining favorable audit
                         opinions on its statements has been painfully slow. The Military
                         Retirement Trust Fund received an unqualified audit opinion on its
                         financial statements for fiscal year 1997; however, no other major DoD
                         component or fund attained other than a disclaimer of opinion. Likewise,
                                                   the OIG disclaimed an audit opinion on the
 “DoD progress toward attaining favorable DoD Consolidated Financial Statements. Those
 audit opinions on its [financial] statements statements and the audit opinions are available
 has been painfully slow.”                         o n t h e I n t er n et at h t t p : / / w w w.dt i c .m i l /
                                                   comptroller/97afs/.

                              The DoD was unprepared to comply with the requirements for audited
                              financial statements levied by the Chief Financial Officers (CFO) Act of
                              1990, the Government Management Reform Act of 1994 and the Federal
                              Financial Management Improvement Act of 1996. Its accounting systems
                              were designed mostly for funds control, not financial statement reporting.

                                                       8
Semiannual Report to the Congress                           Special Emphasis Area--Financial Management




                            Those systems lack integrated, double-entry, transaction-driven general
                            ledgers and cannot produce an audit trail from occurrence of a transaction
                            through recognition in accounting records and, ultimately, incorporation
                            into financial statement data. There are numerous internal control
                            problems in the accounting systems and the non-financial “feeder”
                            systems, which are operated by the acquisition, logistics and other
                            program management communities and provide 80 percent of the
                            financial statement data. These and other fundamental problems have
                            been candidly acknowledged in DoD management representation letters,
                            annual management control assessments and testimony to Congress.

                            The challenges for DoD system designers, financial statement preparers,
                            accounting policy makers and auditors include the steady stream of
                            expanded statutory requirements, new Federal Accounting Standards
                            Advisory Board (FASAB) principles, the Administration’s goal of
                            unqualified audit opinions on the Government-wide Consolidated
                            Statements for fiscal year 1999, DoD management preferences for
                            separate and additional audited financial statements for certain other
                            Defense Agencies and portions of the Military Departments and Office of
                            Management and Budget (OMB) guidance. Each of these has generated
                            significant new audit workload, with no resource augmentation. The
                            DoD must now prepare and audit up to 8 fiscal year 1998 statements
                            (formerly 3) for each of 11 reporting entities to meet OMB requirements.
                            Managers seek audit opinions for at least 4 other reporting entities, for a
                            potential total of 15 entities (and 120 statements). Because separate audit
                            opinions require additional audit steps and tests, the OIG recommended
                            that audit opinions be sought for no more than 9 DoD reporting entities.
                            No other Federal agency has more than 4 reporting entities. Without
                            additional resources or relief from significant portions of the expanding
                            requirements, auditors will have no choice but to cite audit scope
                            limitations as an additional qualification or reason for disclaimer on
                            many DoD financial statements, including the consolidated DoD
                            statements for fiscal year 1998.

                            The DoD plans to have the next generation of accounting systems, which
                            are intended to be CFO Act-compliant, fully fielded in fiscal year 2003.
                            Until then, financial statements will be prepared using alternative sources
                            for data. The bulk of the data will continue coming from non-financial
                            feeder systems, which have numerous internal control problems and
                            whose replacement, modernization or improvement are vulnerable to the
                            usual slippage and the disruptions caused by Year 2000 conversion. The
                            D ep ar tm en t i s s im u l t aneo u sl y at t em pt i n g t o achi eve sy st em
                            modernization, improve security, make the Year 2000 conversion and

                                                    9
Special Emphasis Area--Financial Management                         Semiannual Report to the Congress




                           achieve CFO Act compliance. This is a very high risk strategy, yet most
                           DoD system managers have no choice but to adopt it.

                           Beginning in mid-1998, senior personnel from the OMB, the General
                           Accounting Office (GAO), OIG and DoD CFO began intensive
                           discussions on how to implement the new FASAB standards and achieve
                           favorable audit opinions on DoD and Government-wide financial
                           statements. This dialogue has been highly constructive, and many issues
                           have been resolved. However, the DoD was unable to provide its
                           Biennial Financial Management Improvement Plan to the OIG, DoD, in
                                                  time for our evaluation of it to be included in this
 “It is especially vital that DoD logistics       report, as prescribed by the Federal Financial
 managers recognize the need to improve Management Improvement Act of 1996. We will
 systems and inventory management                 send the results of that evaluation to the Congress
 practices...”                                    separately.

                           In addition to the joint effort to map a sound strategy for accelerating
                           progress toward auditable financial reports, the most hopeful sign of
                           progress has been the recently expanded participation of DoD managers
                           from outside the finance and accounting community in the CFO Act
                           compliance effort. This is largely driven by the Secretary of Defense
                           memorandum of May 15, 1998, which clearly set a high priority on
                           improvement. It is especially vital that DoD logistics managers recognize
                           the need to improve systems and inventory management practices so that
                           reliable information on property, plant, equipment and inventory can be
                           generated for financial reporting purposes.

FINANCE                    The extensive audit requirements driven by the CFO Act and related
OPERATIONS                 guidance have caused major adjustments to DoD internal audit priorities.
ISSUES                     Those changes necessarily include, perhaps ironically, drastic cutbacks in
                           audits of finance operations themselves. These operations include debt
                           collection, vendor payment and payroll. Although financial statement
                           audits identify some internal control weaknesses that relate to operations
                           and accounting reports, they do not provide the direct coverage and sharp
                           focus needed to control risks in day-to-day finance operations, especially
                           vendor pay. Audit coverage to address chronic DoD problems, such as
                           duplicate and erroneous payments, declined steadily as CFO Act-related
                           requirements have grown. Minimal coverage is planned during fiscal
                           year 1999. The situation is further aggravated by lack of assurance that
                           DFAS self-assessments are effective. As in most DoD high risk areas,
                           management depends heavily on audit to identify control weaknesses.




                                                 10
Semiannual Report to the Congress                        Special Emphasis Area--Financial Management




                            The DFAS has been a leader within the DoD in dealing with the Year
                            2000 conversion problem and continues to pursue an ambitious agenda of
                            process reforms. New initiatives include implementing lower thresholds
                            for prevalidating disbursements to obligations and revised progress
                            payment practices. The latter action entails contracting officers providing
                            detailed payment instructions. It will not fully correct the longstanding
                            problem of inadequate safeguards for appropriation integrity in allocating
                            progress payment shares among accounts because the new procedure will
                            apply only to new contracts that are not firm fixed price. Nevertheless,
                            we regard the new procedures as a significant step forward. The
                            population of progress payments covered is the one at highest risk, and
                            the experience gained with the new practices will hopefully resolve a
                            5-year long debate on the cost, workload and processing time impact of
                            departing from complete reliance on automated processes. Eventually,
                            systems now under development will obviate the need for manual
                            processing.

                            Other financial management problems facing the Department include an
                            overly complicated chart of accounts, continuing difficulties in matching
                            disbursements to proper obligations, chronic underestimating or
                            underbudgeting of operations and support costs, a costly and paperwork-
                            intensive budget justification process and vulnerability to fraud and
                            waste in vendor pay.

FRAUD IN DOD                Numerous factors are contributing to the vulnerability to fraud of DoD
FINANCE                     finance operations. Those factors include a weak internal control
OPERATIONS                  environment, staff turbulence and lack of sufficient fraud awareness
                            training for finance personnel. Congressional hearings in September
                            1998 before the Senate Committee on the Judiciary graphically identified
                            control weaknesses and the damage done by a few unscrupulous
                            individuals who exploited those weaknesses.

INVESTIGATIVE               The DCIS has primary investigative
RESPONSIBILITIES            jurisdiction concerning allegations of
                            fraud that directly impact the DFAS,
                            including fraudulent conduct by DoD
                            contractors and DFAS employees. The
                            Military Criminal Investigative
                            Organizations (MCIOs) have primary
                            investigative jurisdiction concerning
                            allegations of fraud pertaining to DFAS
                            services provided at a single military
                                                                               Operation Mongoose
                            installation, as well as pay and allowance

                                                  11
Special Emphasis Area--Financial Management                           Semiannual Report to the Congress




                            and travel fraud committed by a civilian employee or Service member of
                            a Military Department.

OPERATION                   Since 1994, OIG, DoD, auditors and investigators have supported
MONGOOSE                    “Operation Mongoose,” a DFAS initiative involving the use of computer
                            matching techniques to detect fraud, primarily in the area of pay and
                            allowances. Many of the referrals in these cases resulted from matches of
                            active employees to Social Security Administration death files. The OIG
                            personnel have participated in verifications of eligibility of DoD
                            annuitants in the Philippines, Guam and Puerto Rico. Referrals
                            emanating from these verification projects have, for the most part, been
                            referred to the MCIOs for investigation. During fiscal year 1998, the
                            DFAS reported that Operation Mongoose saved $7 million. Problems
                            with database accuracy have been an inhibiting factor; however, the
                            project has been a useful laboratory for determining the viability of
                            various matches as internal controls and fraud detection tools.

PROACTIVE                The DCIS initiated proactive efforts focusing on fraud affecting DFAS
EFFORTS                  operations. One such initiative by the DCIS Columbus office addresses
                         duplicate payments and other erroneous payments made to contractors
                         and vendors by the DFAS Columbus, Ohio, Center. The project, which is
                         directed by the Affirmative Civil Enforcement Office, United States
                         Attorney’s Office, Southern District of Ohio, targets for civil prosecution
                         contractors throughout the United States who are unwilling to return
                         improper payments. To date, the project has resulted in the initiation of
                                                over 40 separate investigations and the recovery
 “To date, the project has resulted             of more than $3.5 million. Another focus area
 in...over 40 separate investigations and involves 129 contr actor s who have been
 the recovery of...$3.5 million.”               i d ent i f i ed b y D FA S as h av i n g su b m i t t ed
                                                duplicate invoices on a repetitive basis. An
                         examination of the duplicate payment requests is currently underway,
                         and separate investigations will be initiated in cases in which the
                         submissions appear fraudulent.

                            The DCIS Indianapolis, Indiana, Post of Duty initiated a proactive
                            project in June 1998 to target transportation carriers who have received
                            duplicate payments from the Directorate for Transportation Payments
                            (DTP), DFAS. The project, patterned after the Columbus project, is using
                            computer data matching provided by Operation Mongoose to detect
                            Government bills of lading with the same number and the same billed
                            amount that had been paid more than once. After reviewing the potential
                            duplicate payment list, the DTP confirmed a total of 1,083 duplicate


                                                  12
Semiannual Report to the Congress                        Special Emphasis Area--Financial Management




                            payments for personal property totaling approximately $1.5 million and
                            590 duplicate payments for freight totaling $160,055.

                            The DCIS Western Field Office initiated a project in March 1998 based
                            on the successful prosecution of an individual who continued to receive
                            Federal retirement benefits intended for her father for 10 years following
                            his death. The project is using computer matching by the Defense
                            Manpower Data Center and the Social Security Administration to
                            identify monies erroneously remitted by DFAS to persons who are
                            deceased. This project is being coordinated with the Operation
                            Mongoose staff.

                            In 1993, the Army Criminal Investigation Command began a task force
                            effort to determine whether soldiers in a “separated and absent without
                            leave” or “dropped from rolls” status were still receiving full pay and
                            allowances. To date, the task force initiated over 600 investigations that
                            resulted in $13 million returned to the Government in fines, forfeitures
                            and restitution.

                            The Naval Criminal Investigative Service (NCIS) initiated efforts in
                            Japan, California and aboard an aircraft carrier to identify fraudulent
                            receipt of Variable Housing Allowance, Basic Allowance for Quarters
                            and Basic Allowance for Housing by Navy members who submitted
                            falsified marriage certifications or failed to report divorces. The NCIS
                            opened 68 investigations to date that resulted in recoveries exceeding
                            $500,000.

                            The Air Force Office of Special Investigations (AFOSI) is formalizing a
                            procedure for timely reporting of systemic program deficiencies
                            discovered during the course of investigations. Where a weakness is
                            discovered, data will be tracked to identify trends and will be shared with
                            all affected agencies. The AFOSI is also taking an aggressive stance on
                            fraudulent employee workers’ compensation claims. Employee
                            Compensation Act investigators at three Air Force Materiel Command
                            installations are now collocated at AFOSI detachments to improve cross-
                            flow of information and timeliness and efficiency of employee
                            compensation fraud investigations.

FRAUD AWARENESS             The DCIS conducts fraud awareness training for DFAS employees
TRAINING                    throughout the country. Since 1995, the DCIS has conducted briefings
                            for approximately 4,820 DFAS employees. The DCIS offices that are
                            collocated with DFAS paying centers maintain close coordination and
                            communicate regularly on matters of mutual interest. Further, the DCIS

                                                  13
Special Emphasis Area--Financial Management                        Semiannual Report to the Congress




                           was invited by DFAS management to provide fraud awareness training at
                           5 DFAS centers and18 operating locations across the country during a
                           nationwide DFAS stand-down for ethics training.

INVESTIGATIONS OF          From fiscal years 1993 to 1998, the DCIS recovered $21.2 million as a
DFAS MATTERS               result of DFAS-related cases. Additionally, these cases resulted in 75
                           criminal convictions, 23 civil judgments or settlements and 56
                           administrative actions.

CASE EXAMPLES              The following are examples of recent criminal and civil prosecutions
                           relative to the DFAS.

                           Air Force Staff Sergeant Robert L. Miller, Jr., was convicted and
                           sentenced by a general courts-martial to 12 years in prison , a
                           dishonorable discharge, reduction in rank to E-1 and forfeiture of all pay
                           and allowances. This was a result of Miller’s theft of 17 U.S. Treasury
                           checks totaling $436,684 and attempted theft of two checks totaling
                           $501,851, from the DFAS, Dayton, Ohio, where he was assigned. Miller
                           caused bogus U.S. Treasury checks to be issued to Payling Scott, of
                           Atwater, California, a co-conspirator, who cashed the checks, kept a
                           portion of the funds for herself and sent the remainder to Miller. Scott
                           pled guilty to conspiracy and was sentenced to 3 years probation and
                           ordered to make restitution for his portion of the stolen funds. This
                           investigation was conducted jointly by DCIS and AFOSI.

                           Teasa Hutchins, Jr., Fort Myer, Virginia, pled guilty to theft of
                           Government funds and was sentenced to 21 months incarceration and
                           ordered to pay $168,772 restitution. Hutchins, a former pay supervisor in
                           the Finance and Accounting Office, Military District of Washington,
                           embezzled nearly $169,000 by establishing an account in the name of a
                           fictitious military member. Hutchins used the ghost account to effect
                           electronic funds transfers to bank accounts owned or controlled by
                           Hutchins and a civilian acquaintance. This investigation was conducted
                           jointly by DCIS and the Army Criminal Investigation Command.

                                         Argent Research & Recovery, Limited (Argent),
                                         Weymouth, Massachusetts, was sentenced to 12 months
                                         probation. Mathew M. Drohan, executive vice president,
                                         was sentenced to 48 months incarceration. Argent and
                                         Drohan were jointly ordered to make restitution in the
                                         amount of $2,127,481. Raymond J. Keegan, Plymouth,
                                         Massachusetts, former president and co-owner of Argent,
                                         pled guilty to two counts of Federal income tax evasion

                                                14
Semiannual Report to the Congress                        Special Emphasis Area--Financial Management




                            and was sentenced to 11 months incarceration, 24 months probation and
                            ordered to pay a $3,100 fine. Argent had been engaged in the business of
                            identifying Federal, state and local government funds that had not been
                            received by the payees and collected the funds for a percentage of the
                            proceeds. Both Argent and Drohan were embezzling funds collected
                            from DFAS on behalf of payees. Keegan failed to report income derived
                            from this criminal activity.

                            Investigation disclosed that checks stolen from DFAS, Columbus, Ohio,
                            by a former employee were deposited into fraudulent business accounts
                            at several banks. Funds were then withdrawn by co-conspirators using
                            false identification. To date, nine subjects have been convicted and
                            sentenced to incarceration totaling over 103 months, with monetary
                            recoveries of $246,000. The longest sentence was meted out to
                            Richard E. Watkins, Columbus, Ohio, who pled guilty to conspiracy to
                            commit bank fraud and was sentenced to 37 months incarceration and
                            ordered to pay $10,000 restitution.

                            Sonya R. Fernandez, Santa Ana, California, pled guilty to theft,
                            embezzlement and submitting false statements and was sentenced to 24
                            mon ths confinement and ordered to pay $269,488 restitution.
                            Investigation disclosed that Fernandez failed to notify the Government
                            for 10 years of the 1987 death of her adoptive father and continued to
                            receive Federal retirement benefits destined for him. The DFAS paid
                            over $97,000 in retirement benefits that Fernandez illegally converted to
                            her own use.

                         Mark J. Krenik, an Air Force Contracting Officer ’s Technical
                         Representative at Reese Air Force Base, Texas, created false invoices for
                         automated data processing equipment. Due to downsizing of his office,
                         he became responsible for generating the requirements, placing the
                         orders, certifying delivery and authorizing payments. He opened two
                         accounts at a local bank under a fictitious business name and placed
                         himself as sole signature authority on the accounts. Eleven Government
                         checks totaling $505,941 were deposited to the accounts. The bank
                         notified Federal authorities. Krenik was found guilty of three counts of
                         filing false claims, received 3 years probation, and was fined and ordered
                                                   to pay restitution. The entire $505,941 deposited
 “The entire $505,941 deposited to the             to the accounts was recovered. Krenik was able
 accounts was recovered. Krenik was                to accomplish his crime because of little or no
 able to accomplish his crime because of oversight on the contracts in which he was
 little or no oversight on the contracts...” involved. Consolidation of responsibilities of


                                                 15
 Special Emphasis Area--Financial Management                       Semiannual Report to the Congress




                          three staff positions into one allowed the opportunity for Krenik to
                          develop the scheme to defraud the Government.

SUMMARY                   The DoD is confronted by formidable management challenges, and it is
                          unlikely that Financial Management will cease to be a high risk area for
                          several years. Mitigating the risk will require strong management
                          commitment and continued support from the audit and investigative
                          communities. If resources permit, that support should be intensified to
                          eliminate the current vulnerabilities as quickly as possible.




                                                16
Semiannual Report to the Congress                            Special Emphasis Area--Year 2000 Conversion




YEAR 2000 CONVERSION

                       The dependence on information technology for conducting military
                       operations and support functions makes any potentially widespread
                       disruption or degradation of service a major concern. Therefore the
                       Secretary of Defense and Chairman, Joint Chiefs of Staff, appropriately
                       termed the “Millenium Bug” a major threat to military readiness. In
                       previous semiannual reports to the Congress, we underscored the
                                              enormity of the management challenges posed by
 “Decades long laxity in configuration        the “Y2K” problem. The most fundamental
 management and system documentation o bs t ac l e t o a n eff i c i ent a nd t i m el y Y 2 K
 have exponentially compounded the Y2K conversion effort is its sheer magnitude: in
 conversion challenge.”                       August 1998 the DoD estimated it had 2,965
                                              mission-critical systems and about 25,000 others,
                       in addition to millions of microchips and processors embedded in
                       hundreds of thousands of pieces of equipment. Decades long laxity in
                       c onf igur a tion ma na ge me nt a nd s yst e m d oc ume n t a tio n h a v e
                       exponentially compounded the Y2K conversion challenge. Over 200
                       audit and inspection reports have highlighted specific Y2K program
                       shortfalls related to:

                                    • Management oversight and awareness

                                    • Assessing Y2K vulnerability

                                    • System interfaces

                                    • Testing

                                    • Reporting

                                    • Contingency planning

                                    • Prioritizing efforts

                                    • Resource management

                                    • Infrastructure

                            Findings in each of these areas and other concerns are discussed below.




                                                   17
Special Emphasis Area--Year 2000 Conversion                               Semiannual Report to the Congress




MANAGEMENT                 Under the phased Y2K conversion approach prescribed in OMB and
OVERSIGHT AND              DoD guidance, all managers were to be fully aware of the potential threat
AWARENESS                  to their operations by December 1996 and actively mobilizing resources
                           to deal with it. Although the Office of the Secretary of Defense began
                           issuing directions and advisories on this subject during 1996, auditors
                           and inspectors found significant awareness gaps as late as September
                           1998. The dispersed ownership of DoD systems and the persistent
                           tendency to regard the problem as a purely technical matter to be handled
                           by computer technicians and not a management or operational
                           consideration, led to belated involvement by many key commanders and
                           managers. The Office of the Assistant Secretary of Defense (Command,
                           Control, Communications and Intelligence) and many other headquarters
                           throughout the Department did not initially recognize the necessity for
                           fairly large, full-time staffs to coordinate Y2K conversion. The pace of
                           the remediation effort has been uneven, and senior managers have not
                           been able to rely on subordinates taking proactive action. There has also
                           been great frustration at the system user and operating command level
                           about the lack of information and guidance flowing down the chain of
                           command and out of the support structure to operators.

                           The Joint Staff and Office of the Assistant Secretary reorganized and
                           expanded their Y2K program offices late in fiscal year 1998. Hopefully,




                          A Defense Information Systems Agency computer megacenter



                                                    18
Semiannual Report to the Congress                             Special Emphasis Area--Year 2000 Conversion




                              this will enable management to do a better job in analyzing status reports,
                              intervening in areas where progress is unsatisfactory and quickly filling
                              remaining gaps in guidance. There is also a need to determine when and
                              how to apply more aggressive measures, such as funding cutoffs and
                              configuration change freezes.

                              Two August 1998 memoranda from the Secretary and Deputy Secretary
                              of Defense were especially noteworthy. On August 7, Secretary Cohen
                              declared that “The Department of Defense...is making insufficient
                              progress in its efforts to solve its Y2K computer problem.” He directed a
                              number of significant actions that, for the first time, made the Chairman
                              of the Joint Chiefs of Staff and the Unified Commanders-in-Chief
                              accountable for significant aspects of the Y2K conversion effort,
                              including operational evaluations and readiness assessments. In response
                              to audit findings that many weapon system managers were not assessing
                              the Y2K vulnerability of their systems, the Secretary instituted reporting
                              to him on the Y2K compliance status of every major system. Likewise,
                              he directed funds be cut off to any users of Defense computer
                              megacenters that did not have test agreements with those megacenters by
                              October 1998. Again, this responded to audit findings that main frame
                              computer users and megacenter managers generally lacked test plans and
                              agreements.

                        On August 26, 1998, the Deputy Secretary of Defense ordered senior
                        Office of the Secretary of Defense officials to verify that all functions
                        under their purviews “will continue unaffected by Y2K issues.”
                        Particular emphasis was put on end-to-end testing for logistics,
                        personnel, health/medical, communications and intelligence functions.
                        The Chiefs of Staff for the Military Services and the Directors of Defense
                                                 Agencies must also certify that they have
 “It is disappointing that inadequacies in completed testing their systems by November
 management oversight and awareness              1998.
 were identified in 98 audits and
 inspections during fiscal year 1998.”           T h e s t r o n g l ea d e r s hi p e v i n ce d b y t h o s e
                                                 memoranda was a very constructive influence.
                        However, the need for such direction after almost two years of Y2K
                        conversion effort also indicated the previous lack of responsiveness to
                        the problem by most functional area heads and many senior commanders.
                        It is disappointing that inadequacies in management oversight and
                        awareness were identified in 98 audits and inspections during fiscal year
                        1998.




                                                     19
Special Emphasis Area--Year 2000 Conversion                         Semiannual Report to the Congress




ASSESSING Y2K              The process of determining the Y2K vulnerability of individual systems
VULNERABILITY              and initiating contingency plans for vulnerable systems was to have been
                           completed by June 1997. Audits continued to identify organizations and
                           multiple system users, such as some Navy ships, that were still in the
                           assessment phase in September 1998. Relatively few DoD components
                           made diligent efforts to prepare contingency plans during the assessment
                           phase. Most of the 98 audit and inspection reports with findings related to
                           assessment identified gaps and errors in the evaluation of Y2K
                           vu lnerabiliti es, often because of poor inventory data, lack of
                           understanding of system interfaces and confusion over responsibilities.

SYSTEM                     About 74 audit reports addressed problems encountered by managers as
INTERFACES                 they tried to cope with the lack of adequate documentation or system
                           interfaces and the unwillingness or inability of data interchange partners
                           to develop sound agreements for Y2K remediation and testing. If
                           interfacing systems do not have compatible and complete Y2K
                           corrections, one noncompliant data exchange partner may cause failures
                           throughout an entire web of systems. The DoD has properly stressed the
                           need for interface memoranda of agreement; however, we frequently
                           found that such agreements were incomplete or not meaningful. The Air
                           Force Audit Agency reported that many Air Force activities did not
                           properly evaluate system interfaces because:

                                   • managers did not dedicate the necessary resources to effectively
                                     progress beyond identifying systems;

                                   • system managers often considered coordinating interfaces the
                                     sole responsibility of the activity receiving their data and,
                                     therefore, did not initiate contact; and

                                   • some activities planned to postpone identifying interfaces until
                                     after init iating system renovati ons, even though such
                                     procedures could result in costly reworks.

                           We found the same situations in numerous other DoD organizations. Any
                           inadequate agreements that have not yet been identified by auditors may
                           cause problems during upcoming testing.

TESTING                    The number of systems and devices that need testing to ensure Y2K
                           compliance, the multiplicity of interfaces, the late fielding of many new
                           systems and Y2K patches, and other factors make Y2K testing one of the
                           most complicated testing challenges ever confronted. The relatively short
                           time left for testing after the belated start of Y2K conversion is forcing

                                                 20
Semiannual Report to the Congress                         Special Emphasis Area--Year 2000 Conversion




                                                  nearly simultaneous system tests, functional tests
 “It remains to be seen if this level of          and operational evaluations. It remains to be seen if
 complexity will simply overwhelm the             this level of complexity will simply overwhelm the
 Department’s ability to organize a               Department’s ability to organize a systematic and
 systematic and efficient testing                 efficient testing regimen.
 regimen.”
                                                  To date, 86 audits have identified gaps in test plans
                            and other problems. The DoD and Congress have been very responsive,
                            however, to our advocacy of an aggressive joint exercise (operational
                            evaluation) program to provide realistic testing of both systems and
                            contingency plans, starting in early 1999.

REPORTING               Until late fiscal year 1998, DoD Y2K compliance status reporting was
                        driven almost entirely by the requirements and formats specified by the
                        OMB for quarterly agency status reports. The DoD initially attempted to
                        collect status information in a central database, which served the dual
                        purposes of facilitating consolidated DoD reporting to the OMB and
                        offering a single source for information needed by testers, users and data
                        exchange partners. Unfortunately, in early 1998 it was determined that
                        the detailed data in the repository could be useful to hackers because it
                        could possibly be used to identify ways to penetrate systems or to mask
                        sabatage as a Y2K disruption. The idea of a freely accessible database
                        was dropped, and the DoD has been searching ever since for substitutes.
                        This problem remained unresolved at the end of fiscal year 1998, but a
                                               Data Base Task Force had been formed to address
 “The most serious problem relating to it.
 reporting...has been the lack of data
 quality control...”                           The most serious problem related to reporting,
                                               however, has been the lack of data quality control
                        by the Military Departments and Defense Agencies. Inaccurate status
                        reporting was identified in 74 audits and inspections. In virtually all
                        cases, the reporting was overly optimistic and misleading. For example,
                        of the 430 DoD mission-critical systems reported as Y2K compliant in
                        November 1997, the OIG, DoD, estimated that only 109 systems
                        (25 percent) were appropriately certified as compliant. It is not yet clear
                        that the management controls in the Military Departments and Defense
                        Agencies have improved to the point where the status reports have
                        credibility.

CONTINGENCY                 Contingency planning at the system level and continuity of operations
PLANNING                    planning at the mission level are essential for Y2K preparedness. Sixty-
                            six audit and inspection reports discussed inadequacies in this area.
                            Causes include confusion over responsibilities, conflicting priorities and

                                                  21
Special Emphasis Area--Year 2000 Conversion                                        Semiannual Report to the Congress




                           misconceptions concerning the need for contingency plans even when
                           systems are deemed Y2K compliant.

PRIORITIZING               Twelve audits and inspections indicated failures to establish priorities for
EFFORTS                    system conversion. Assessments regarding the mission criticality of
                           systems by the system owners are often different from assessments by the
                           system users, and those differences remain unreconciled. In a broader
                           sense, the Y2K conversion effort has had to compete for management
                           attention and resources with other significant priorities like business
                           process reform, automated system modernization and information
                           assurance. This has resulted in a lack of active leadership in several
                           functional areas and failure to decrease risk by realigning resources to
                           accelerate Y2K remediation. For example, several DoD components
                           postponed procuring Y2K compliant communications switches to replace
                           non-compliant switches until fiscal year 1999, thus risking problems due
                           to delivery slippage and late testing. The strong messages from the
                           Secretary and Deputy Secretary of Defense in late fiscal year 1998
                           should eliminate any ambiguity about the relative priority of Y2K
                           conversion.

RESOURCE                   The DoD components estimate the total Y2K conversion effort cost to be
MANAGEMENT                 $2.5 billion. It is likely that the actual cost will be considerably higher.
                           Twenty-seven audit reports discussed the need for better cost estimating.
                           Unfortunately, the opportunity to budget for anticipated costs is
                           essentially past. However, the DoD components will be making fund
                           allocation decisions throughout 1999, and it is important that valid Y2K
                           requirements be promptly identified and funded. It is particularly
                           important that the Y2K operational evaluations be adequately resourced.
                           This includes ensuring that technical experts are made available to the
                           unified commands to support their tests and exercises. The compressed
                           schedules will significantly stress the available pool of system experts,
                           both contractors and Government employees.

INFRASTRUCTURE             Over 40 audit and inspection reports addressed support facilities and
                           devices. The DoD components need to continue addressing Y2K
                           v u l n e r ab i l i t i es r e l a t e d t o e l e c t r i c a l p o w e r g e n e r a t i o n , t h e
                           telecommunications infrastructure, base and building security systems,
                           military air traffic control systems, water and sewage treatment facilities,
                           manufacturing and materiel handling equipment and numerous other
                           support considerations. This is a particularly difficult area because of the
                           dispersion of DoD installations and the fact that the DoD does not own
                           many of the facilities and devices that it uses. Owners include foreign
                           governments, public utilities and private firms. The problem must be

                                                         22
Semiannual Report to the Congress                         Special Emphasis Area--Year 2000 Conversion




                            worked intensively at the base level, for the most part. We believe that
                            particular risk exists with respect to ensuring that host nation support for
                            U.S. forces abroad is not disrupted or, if disruptions occur, sound
                            contingency plans are in place. It is important that the unified commands
                            overseas take the lead in addressing this problem.

OTHER AREA OF               The Department’s outreach efforts to its suppliers had no central
CONCERN                     d irection or focus unt il late fiscal year 1998. Although som e
                            organizations, such as the Army Tank and Automotive Command and the
                            Defense Logistics Agency, initiated proactive efforts, most of the DoD
                            did not do so and the 1997 DoD Y2K Management Plan essentially
                            ignored this aspect. The OIG, DoD, has worked closely with the Office
                            of the Deputy Assistant Secretary of Defense (Logistics) during
                            September 1998 to put an accelerated, systematic process into place. It
                            remains to be seen if the DoD can catch up with and emulate the effective
                            actions taken in some parts of the private sector, such as certain
                            automobile manufacturers.

CONCLUSION              Until extensive testing and operational evaluations have taken place, it
                        will be impossible to gauge the likelihood of significant mission
                        impairment caused by Y2K computing failures. Indeed, any assessment
                        will necessarily be speculative even at that point, for a variety of reasons.
                        For example, we cannot predict exactly what scenarios will confront U.S.
                        forces in early 2000. Therefore we cannot know precisely what systems
                        will be in use, in what modes and with what data exchange partners. We
                        do not know to what extent those interfacing systems, especially foreign
                                              syst em s, wi l l b e com p li ant . Wi t h so m an y
 “With so many unknowns, we agree             unknowns, we agree with Deputy Secretary
 with Deputy Secretary Hamre’s                Hamre’s assertion that surprises are inevitable. The
 assertion that surprises are inevitable.” challenge is to ensure that those disruptions are no
                                              more than temporary annoyances. By delaying its
                        Y2K conversion effort, the DoD has allowed considerably increased risk
                        to develop.

                            The Secretary of Defense’s acknowledgement that DoD progress has
                            been insufficient indicates the Department’s intention not to let that risk
                            grow further.

                            To avoid additional slippage and risk, the DoD needs to:

                                    • finalize its revised Y2K management plan,

                                    • establish firm guidelines for freezing system changes,

                                                  23
Special Emphasis Area--Year 2000 Conversion                        Semiannual Report to the Congress




                                   • enforce the provisions of the August 1998 memoranda,

                                   • accelerate outreach efforts to other governments and DoD
                                     suppliers,

                                   • improve the accuracy of status reports,

                                   • give high priority to sufficient resources for Y2K operational
                                     evaluations,

                                   • emphasize contingency planning, and

                                   • resolve the problem of how to disseminate Y2K status
                                     information efficiently without creating security risks.

                           The DoD audit and inspection organizations will continue to be heavily
                           involved in Y2K conversion throughout 1999 and probably well into
                           2000. The chief areas of emphasis will be on ensuring realistic testing
                           and contingency planning. The heavy reliance by DoD managers and
                           commanders on the oversight community for assistance in meeting the
                           Y2K challenge has caused considerable disruption in coverage of other
                           high risk areas. Nevertheless, we agree with the need to give top priority
                           to this very difficult challenge and are generally pleased with the
                           responsiveness to our findings. We will continue keeping the DoD,
                           Congress, OMB and the President’s Special Advisor on Year 2000
                           Conversion informed of our results.




                                                 24
Semiannual Report to the Congress                                                                 Chapter Two




 CHAPTER TWO - SIGNIFICANT ACTIVITIES

 INTRODUCTION                This chapter summarizes the significant activities of the Office of the
                             Inspector General components and their work with other members of the
                             DoD oversight community.

 CRIMINAL                    The four Defense Criminal Investigative Organizations (DCIOs)
 INVESTIGATIONS              con tinue to com bat cri me affecting t he DoD and the Mi litary
                             Departments. The Defense Criminal Investigative Service (DCIS), the
                             criminal investigative arm of the OIG, focuses the bulk of its 344 civilian
                             criminal investigators on the investigation of procurement fraud by
                             Defense contractors and health care fraud by health care providers. The
                             three Military Department criminal investigative organizations, the Army
                             Criminal Investigation Command (CIDC), the Naval Criminal
                             Investigative Service (NCIS) and the Air Force Office of Special
                             Investigations (AFOSI), also investigate procurement fraud, but focus the
                             majority of their resources on other crimes against persons and property
                             affecting their respective Military Departments. The AFOSI and NCIS
                             also conduct counterintelligence investigations and operations. This
                             section focuses on the procurement, health care and other major fraud
                             investigations accomplished by the DCIOs.

   Procurement and           Figure 1 (page 27) displays the investigative results achieved by the four
   Health Care Fraud         organizations during the period in the areas of procurement fraud and
   Investigative             health care provider fraud.
   Results

   Examples of Major         The following are examples of some of the more significant fraud cases
   Procurement Fraud         occuring during this semiannual period. It should be noted that in
                             virtually all instances, the Defense Contract Audit Agency (DCAA)
                             played a critical role in supplying needed audit support.

   “Hercules agreed to pay $26.4 million to              He rc ule s, In c or po ra t e d , Wi l min g to n ,
   settle allegations that it illegally                  Delaware, entered into a civil settlement
   overcharged the Navy for labor costs on               agreement with the Government. Hercules
   contracts implementing the Intermediate-              ag r ee d t o p ay $ 2 6 . 4 m i l l i o n t o s et t l e
   Range Nuclear Forces (INF) Treaty.”                   allegations that it illegally overcharged the
                                                         Navy for labor costs on contracts
                             implementing the Intermediate-Range Nuclear Forces (INF) Treaty.
                             Alliant Techsystems, Incorporated, Hopkins, Minnesota, purchased
                             Hercules in 1995. An investigation disclosed that managers at Alliant and
                             Hercules regularly directed employees to mischarge labor time to the INF
                                                   25
Chapter Two                                                                 Semiannual Report to the Congress




                         Treaty Program, even though management knew the employees did not
                         devote as much time to the contract as was charged to the Government. A
                                              former em ployee included the mi schargi ng
 “A former employee included the              allegations against the companies in a qui tam
 mischarging allegations against the          complaint. The relator will receive $7.91 million
 companies in a qui tam complaint. The from the settlement. (DCIS/NCIS)
 relator will receive $7.91 million from
 the settlement.”                             In an administrative action, Lockheed Martin
                                              Corporation (LMC) agreed to remove $5 million in
                         disallowed costs from its incurred cost submissions to the Government
                         for 1992-1997. A qui tam complainant alleged that LMC mischarged the
                         Government by directing costs incurred in a commercial venture to the
                         Government. In the ensuing investigation and audit, DCAA found that
                         the Government’s agreement allowed LMC to charge commercial
                         business expenses for the development of training courses to the
                         Government overhead pool, but that the commercial business being
                         charged to the Government was well beyond the scope of the agreement.
                         The DoD and Department of Justice (DoJ) attorneys determined,
                         however, that LMC acted in good faith in its interpretation of the cost
                         accounting standard involved; therefore, no criminal prosecution was
                         pursued. (DCIS/Federal Bureau of Investigation (FBI))

                     Raytheon Company agreed to pay the Government $2.7 million in a civil
                     settlement. The agreement settled allegations that Raytheon charged the
                     Government for costs incurred in marketing products to foreign
                     governments. Since 1986, Raytheon’s cost accounting procedures have
                     provided for separate accounting treatment of foreign and domestic
                                            marketing costs. These procedures, and the Cost
 “Raytheon Company agreed to pay            Accounting Standards of the Federal Acquisition
 the Government $2.7 million in a civil Regulation, require the allocation of Raytheon’s
 settlement.”                               foreign marketing costs to contracts between
                                            Raytheon and its foreign customers, and allocation of
                     its domestic marketing costs to U.S. Government contracts. The
                     Government asserted that most of the activities of the Raytheon
                     international development function were foreign marketing activities and
                     t ha t R a yt h eo n i m p r op er l y c l a s s i f i e d t he c os t s a s “d i v i s i o n
                     administration” costs allocable to Government contracts. (DCIS)




                                                       26
Semiannual Report to the Congress                                                                                       Chapter Two




                                 PROCUREMENT FRAUD AND MAJOR HEALTH CARE FRAUD
                                          INVESTIGATIVE CASE RESULTS
                                            DCIS            CIDC             NCIS           OSI         Joint DCIO              Total
Litigation Results - DoJ Only
Indictments                                  62              8                 6             2               20                  98
Convictions                                  38              1                10             1               18                  68
Civil Settlements/Judgments                  74              2                 5             1               22                 104
Monetary Outcomes
DoJ Only                                 $73,935,203       $564,264         $1,579,499     $441,153      $35,879,893     $112,400,012
DoD Administrative Recoveries1            16,999,998          62,658         3,637,916      305,095          864,969        21,870,636
Investigative Recoveries2                     450,900         15,000               7,715           0                0            473,615
Total                                     $91,386101       $641,922         $5,225,130     $746,248      $36,744,862     $134,744,263

1
 Includes the results of military courts-martial.
2Includes
             Government properties seized or otherwise recovered during investigations. Those properties may include items
    previously transferred to a Defense Reutilization and Marketing Office. Government property recovered by investigation is
    valued at original acquisition price, which may exceed the current fair market value.


                                                                 Figure 1


                                       CTX International, Incorporated, paid $10 million to resolve penalties
                                       and duties resulting from U.S. Customs violations. In an earlier
                                       agreement, CTX pled guilty to making false statements to the DoD and
                                       paid $2 million in fines. An investigation showed that CTX improperly
                                       changed country of origin tags on computer monitors purchased by prime
                                       contractors for ultimate sale to the DoD and other Government agencies.
                                       The monitors, some new and some refurbished, were actually
                                       manufactured in Taiwan, but made to appear as though they came from
                                       an approved source and were not refurbished. This violated provisions of
                                       the Buy American Act/Trade Agreement Act. (DCIS/U.S. Customs
                                       Service[USCS])

                                       Spire Corporation, Bedford, Massachusetts, agreed to pay the
                                       Government $547,000 in a civil sett lem ent resulti ng from an
                                       investigation of contracts and grants awarded to Spire. Contracts
                                       included those awarded by the Defense Advanced Research Projects
                                       Agency (DARPA) through the Small Business Innovation Research
                                       Program (SBIRP). In its proposal submission to DARPA, Spire certified
                                       that it had not submitted the proposal to any other U.S. Government
                                       agency. However, Spire had submitted a nearly identical proposal to the

                                                                   27
Chapter Two                                           Semiannual Report to the Congress




              National Science Foundation two weeks earlier. Both agencies awarded a
              Phase I grant to Spire. Spire allegedly performed one scientific research
              effort and received duplicate funding, a violation of SBIRP regulations.
              (DCIS/National Aeronautics and Space Administration/Department of
              Health and Human Services [HHS]/National Science Foundation)

              MSM Security Services, Incorporated, Greenbelt, Maryland, agreed to
              pay a $1.2 million civil settlement to resolve false claims allegations
              r egar ding M SM ’s c ontrac ts to c onduc t s e c ur ity ba c kgr o u n d
              investigations for the DoD and the USCS. The investigation focused on a
              “less than arms length” transaction between MSM and a related company
              in April 1989. In that transaction, MSM purportedly paid $550,000 to
              acquire exclusive use and control of an accounting software product the
              Government had already leased in 1987 for 20 years. The cost of the
              source code was depreciated by MSM over 5 years and billed on a
              bimonthly basis to the DoD contract as a certified allowable cost. In
              1989, MSM and two of its principal officers allegedly billed for the 1989
              source code transaction. This duplicated the 1987 software licensing
              agreement, in essence charging the Government twice for the same
              product. It was further alleged that the 1989 source code purchase was
              not allowable, beneficial or demonstrably related to the performance of
              MSM’s contracts with the DoD and USCS. (DCIS)

              Frequency Electronics Incorporated (FEI), Uniondale, New York, a
              defense contractor, and leading manufacturer of electronic timing devices
              for Government and commercial use, pled guilty to falsifying costs on a
              DoD contract. Pursuant to a plea agreement, FEI paid a criminal fine of
              $400,000 and reimbursed the Federal Government $1.1 million for the
              cost of its investigation. FEI also paid the Federal Government $6.5
              million to settle two civil suits charging FEI with engaging in fraud on
              defense contracts. (DCIS/NCIS/AFOSI/FBI)

              Hess Environmental Laboratories (Hess) and Mr. Michael L. Klusaritz,
              former laboratory director, submitted false test results to Tobyhanna
              Army Depot, Pennsylvania, pertaining to effluent discharge from its
              Industrial Wastewater Treatment Plant and Sewage Treatment Plant.
              Hess submitted fraudulent analytical reports, which included test results
              that were not performed using required equipment, not performed in
              accordance with the required Environmental Protection Agency (EPA)
              methods or were not performed at all. Investigation disclosed that
              Mr. Klusaritz resigned from Hess and started PHASE II Laboratories,
              where he continued his fraudulent scheme. After individual and company
              guilty pleas to multiple felonies, sentences imposed included restitution

                                   28
Semiannual Report to the Congress                                                                            Chapter Two




                                in the amount of $5.9 million, special assessments of $4,750, 12 months
                                confinement and 3 years probation. Additional sentences for other
                                individuals are pending. (CIDC/EPA)

                                Microwave Communications Associates, Incorporated (MCA), agreed to
                                pay $3 million in a civil settlement agreement to resolve issues brought in
                                a qui tam complaint; the relator will receive $600,000 of this amount.
                                MCA allegedly failed to perform required critical testing on components
                                for the Advanced Self-Protection Jammer (ASPJ) program. The ASPJ
                                program is an advanced radar jamming system used in Navy and Air
                                Force combat aircraft. The system protects aircraft and crew from enemy
                                                                radar guided air-to-air and surface-to-air
                                                                missiles by “jamming” the enemy's radar
                                                                signals. From 1991 to 1992, MCA
                                                                m a n u f a c t u r e d c r i t i c a l c om p o n e n t s ,
                                                                including integrated microwave assembly
                                                                components, for the system and provided
                                                                them to ASPJ prime contractors. (DCIS/
                                                                FBI/NCIS/AFOSI)

                                                               Stephen J. Schrang, former president and
                                                               majority shareholder of Neese Coated
                                                               Fabrics, Incorporated, St. Louis, Missouri,
   Surveillance of a DoD contractor sandblasting equipment and was sentenced to 3 years incarceration, 3
   creating environmental waste.                               years supervised release and a $200 special
                                                               a s s e s s m e nt . S ch r a n g p l e d g u i l t y t o
                                                               submitting false test certifications to the
                                  Government and improperly generating, transporting, treating, storing or
                                  disposing of hazardous waste. The investigation determined that Neese
                                  delivered more than 40,000 pieces of defective fabric, valued at over $2
                                  million, to the DoD for the manufacturing of tents. Schrang initially fled
                                  the United States to avoid prosecution. Following a 5-year extradition
                                  effort, Schrang was returned to the United States in August 1997. (DCIS/
                                  U.S. Marshals Service)

                                An investigation of a qui tam complaint of the alleged bribery of an
                                Israeli businessman in conjunction with the Government of Israel’s
                                (GOI) purchase of American-made helicopters, also led to the discovery
                                of violations by various other entities. Aerospatiale General Aviation
                                (AGA) was ordered to pay $17 million for violations of the False Claims
                                Act. The GOI, through its Ministry of Defense offices in New York,
                                contracted with AGA to purchase 22 Trinidad fixed wing aircraft. The
                                contract was partially funded by the Foreign Military Financing (FMF)

                                                           29
Chapter Two                                                    Semiannual Report to the Congress




                      program administered by the Defense Security Assistance Agency
                      (DSAA). Under DSAA rules, AGA was required to certify the portion of
                      the contract price associated with the foreign content of the aircraft. The
                      FMF program will only pay for the portion of the contract price
                      associated with the U.S. content (goods and services of U.S. origin) of
                      the aircraft. AGA falsely certified to DSAA that only $1.8 million of the
                      contract price came from foreign content, with the remaining $6.1
                      million being of U.S. content. Based on AGA’s certification, the DSAA
                      reimbursed the GOI $6.1 million for the U.S. content of the contract
                      price. However, investigation determined that AGA could only verify
                      $343,342 of the $6.1 million claimed. As another result of this
                      investigation, Telephonics Corporation agreed to pay a $1.085 million
                      civil settlement to resolve issues concerning its nondisclosure to DSAA
                      of a commission agent in conjunction with a subcontract with American
                      Eurocopter Corporation. Telephonics allegedly used in-country support
                      services purchase order(s) to pay an agent’s commission once they
                      realized that commissions were not authorized under the contract. (DCIS/
                      FBI)

                      Levi Jacob Carey, the president of Computer Software Analysts,
                      Incorporated, a computer and software support contractor for the Air
                      Force, embezzled in excess of $1 million from the company's 401K fund.
                      As stipulated in the contract, the Air Force matched funds invested by the
                      company and its employees. The president of the company withdrew the
                      funds for personal gain. The company president was found guilty on one
                      count of embezzlement and was sentenced to 1 year in prison and 4 years
                      of probation upon release, with the first 90 days of probation being home
                      confinement. He was also ordered to repay $1 million to the 401K fund
                      in restitution. (NCIS/AFOSI)

 “Dr. Howard M. Addis was found guilty of        Dr. Howard M. Addis was found guilty of
 soliciting and receiving kickbacks...for        soliciting and receiving kickbacks in exchange
 providing patient referrals...and was           for providing patient referrals to St. Joseph’s
 sentenced to 37 months imprisonment, 3          Medical Center, South Bend, Indiana, and was
 years supervised release and ordered to         sentenced to 37 months imprisonment, 3 years
 pay a $40,000 fine.”                            supervised release and ordered t o pay a
                                                 $40,000 fine. Some of the patient referrals
                      included Civilian Health and Medical Program of the Uniformed
                      Services (CHAMPUS)/TRICARE beneficiaries. At the Government’s
                      request, Addis’ sentencing included consideration of his perjury during
                      the first part of the sentencing hearing and during his testimony before
                      the Federal grand jury that eventually indicted him and another
                      physician, Peter D. Farr. St. Joseph’s (doing business as Home Group

                                            30
Semiannual Report to the Congress                                                          Chapter Two




                            Enterprises, Incorporated) pled guilty to paying kickbacks to Farr and
                            Addis, and was sentenced to 1 year probation and fined $686,263.
                            (DCIS/FBI/HHS/Indiana Medicaid Fraud Unit)

                            Dowty Woodville Polymer Limited, Staffordshire, England, agreed to
                            pay the DoD $12.4 million to settle a civil suit. Dowty allegedly violated
                            the False Claims and the Truth in Negotiations Acts in connection with
                            the sale of wing slot seals for F-111 and B-1B aircraft to the U.S. Air
                            Force. The investigation alleged that labor hours were defectively priced
                            on the initial contract in the early 1980’s, then were defectively priced in
                            subsequent contracts. Material requirements were also inflated and not
                            disclosed in negotiations. (AFOSI/DCIS)

                            The Lockheed Martin Control Systems Division, Johnson City, New
                            York, formerly known as General Electric Aircraft Control Systems
                            Division, agreed to pay the Federal Government approximately $7.9
                            million to settle defective pricing claims relating to Navy contracts for
                            Flight Control Systems for the F/A-18 aircraft. General Electric allegedly
                            submitted inflated claims while a subcontractor to McDonnell Douglas
                            Aircraft Corporation, the prime contractor for the F/A-l8 aircraft. (DCIS/
                            NCIS)

 Examples of Health         A $15 million civil settlement was reached with Quest Diagnostics,
 Care Fraud                 Incorporated, successor to Damon Clinical Laboratories, Incorporated.
                            Damon was suspected of submitting false claims to the CHAMPUS and
                            Medicare. Damon allegedly conspired with other medical facilities to
                            manipulate the normal blood tests of patients suffering from end stage
                            renal disease solely to increase billings. Instead of conducting the normal
                            19 blood tests a month, the blood tests were allegedly split into two tests
                            on two separate days, resulting in unnecessary blood draws for each
                            patient and inflated profits. Medically unnecessary tests were also
                            allegedly added to the patients’ bills to obtain additional revenue. (DCIS/
                            HHS/FBI)

                            A qui tam complaint brought by an accounting assistant led to a $5.6
                            million civil settlement with Yale University School of Medicine (YSM)
                            with regard to its handling of credit balances. Credit balances are
                            accounting entries that reflect receipt of monies collected by YSM from
                            insurance carriers, Government agencies and individuals. The balances
                            represented amounts owed by YSM to patients, health benefit programs
                            (including CHAMPUS) and/or clinical departments within the school.
                            Inasmuch as the balances were not matched to specific medical charges,
                            the amounts were posted as unidentified credit balances and retained by

                                                  31
Chapter Two                                                        Semiannual Report to the Congress




                         YSM. While credit balances are acceptable on a short-term basis, the
                         Government contends that YSM improperly handled a significant
                         number of credit balances. YSM acknowledged that it failed to
                         adequately manage and supervise the handling of certain credit balances.
                         (DCIS/FBI)

                      Edward Lee Harvey, DMD, pled guilty to submitting fraudulent health
                      care claims to a TRICARE contractor and was sentenced to 1 year and 1
                      day imprisonment, 3 years supervised probation, 300 hours community
                      service, a $3,000 fine, a $100 special assessment and ordered not to
                      practice dentistry during probation. Under a separate civil settlement
                      agreement, Harvey paid $527,086 in restitution and agreed to be
                      permanently debarred as a DoD health care provider. Harvey, a pediatric
                      dentist, participated in the TRICARE Active Duty Family Member
                                                    Dental Plan, a comprehensive dental
 “Harvey paid $527,086 in restitution and agreed benefit program available nationwide to
 to be permanently debarred as a DoD health         families of active duty military personnel.
 care provider.”                                    An investigation disclosed that Harvey
                                                    submitted fraudulent claims to United
                      Concordia Companies, Incorporated, Camp Hill, Pennsylvania, which
                      administered the dental plan under a TRICARE contract. From
                      February 2, 1996 through August 14, 1997, Harvey submitted false
                      claims for procedures that were not medically necessary and for
                      reimbursement for services in which Harvey had improperly waived
                      beneficiaries’ co-payments. (DCIS)

                         Home Pharmacy Service (HPS), a supplier of pharmaceuticals to nursing
                         homes, allegedly repackaged and resold medications that were returned
                         to HPS by the nursing homes, without crediting Medicaid, Medicare,
                         TRICARE and the Illinois Department of Public Aid (IDPA) for the cost
                         of the returned medicines. HPS agreed to pay a $5.3 million civil
                         settlement to resolve the allegations. The settlement marks the first time
                         in Illinois that a company agreed to pay fines and restitution for failing to
                         reimburse the IDPA for returned medications. David Yociss, HPS’s
                         former owner and manager, devised the resale scheme. Yociss pled guilty
                         to making false statements and was sentenced to 2 years imprisonment, 3
                         years supervised release, a $250,000 fine and $500,000 in restitution.
                         (DCIS/FBI/Drug Enforcement Administration/Illinois State Police,
                         Medicaid Fraud Unit)

                         Dr. David E. Sternberg, who operated a psychiatric practice in the
                         Kansas City area, was sentenced to 60 months incarceration, 3 years
                         supervised release, $926,940 restitution and a $1,750 special assessment.

                                               32
Semiannual Report to the Congress                                                         Chapter Two




                                                     Sternberg was found guilty by Federal jury of
 “Dr. David E. Sternberg...was sentenced to 13 counts of mail fraud, 1 count of interstate
 60 months incarceration, 3 years supervised transportation in aid of racketeering and 21
 release, $926,940 restitution and a $1,750          counts of money laundering. Since 1990,
 special assessment.”                                Sternberg submitted false and fraudulent
                                                     claims to maximize reimbursements from
                        Federal and private insurance programs. The investigation also disclosed
                        that Sternberg paid as kickbacks 15 percent of the amount he collected
                        for treating patients referred to him by a psychologist. Sternberg
                        laundered money and promoted the kickback scheme by depositing the
                        proceeds collected from the scheme and then withdrawing the proceeds
                        to pay the kickback. Sternberg also solicited a $250,000 bribe and the
                        referral of 25 new patients per month from a psychiatric hospital in return
                        for referring patients for hospitalization. His wife, Frances Sternberg,
                        pled guilty to one count of witness tampering and was sentenced to a
                        $2,000 fine and 1 year probation. (DCIS/FBI)

                            A qui tam complaint led to a $17.2 million civil settlement with the
                            University of Texas Health Science Center (UTHSC). The UT Medical
                            School and UTHSC allegedly claimed and received monies for services
                            the relator believed were actually performed by resident physicians of the
                            county hospital system, but which were billed as having been performed
                            by faculty physicians. The claims did not contain sufficient documentary
                            evidence, as required by Medicare and CHAMPUS regulations, that
                            faculty physicians were personally and identifiably involved in the
                            performance of those services. (DCIS/HHS)

                            North Louisiana Rehabilitation Hospital (NLRH) and its medical
                            director, Dr. Joseph Mitchell Smith, agreed to pay civil penalties of $4.2
                            million and $250,000, respectively, to settle allegations that they
                            submitted false claims to the Government, including CHAMPUS.
                            Alleged schemes to increase NLRH’s revenues included charging for
                            physician rather than actual consultant services, admitting patients whose
                            medical condition did not warrant or could not benefit from inpatient
                            rehabilitation and keeping patients for unreasonable and excessive
                            periods of time. (DCIS/HHS)

                            An investigation found that Muttaiya Darmarajah, M.D., of Panama City,
                            F lor ida, bill e d CHAM PUS a nd Medic a re for full, ho u r-l o n g
                            psychotherapy sessions when he actually provided only limited services.
                            He billed for therapy sessions that were never performed or were
                            performed by lesser-qualified providers. Darmarajah also filed a false
                            1993 tax return by failing to report income related to his psychiatry

                                                 33
Chapter Two                                                 Semiannual Report to the Congress




                   practice. Darmarajah agreed to pay a $1.8 million civil settlement to
                   resolve a qui tam False Claims Act lawsuit; the relator will receive
                   $270,000 of that amount, and Darmarajah will pay an additional $40,059
                   in fees and costs to the relator’s attorneys. Darmarajah pled guilty to one
                   count each of filing false claims and income tax evasion. He was
                   sentenced to 30 months imprisonment, 3 years probation and ordered to
                   pay $929,599 in restitution. (DCIS/FBI/Internal Revenue Service/audit
                   support: HHS & OPM)

                   Charter Hospital, Orlando South, Kissimmee, Florida, agreed to pay the
                   Government $4.7 million in a civil settlement agreement relating to the
                   provision of treatment that was purportedly not medically necessary and
                   to the alleged falsification of patient medical records. Two former
                   employees of Charter Hospital originally filed the qui tam complaint and
                   will receive $903,900 of the settlement amount. An investigation
                   disclosed that Charter Hospital improperly admitted and retained patients
                   for psychiatric treatment who were actually suffering from dementia,
                   organic brain disorders and symptoms of Alzheimer’s disease. Personnel
                   at Charter Hospital allegedly knew such treatment was not medically
                   necessary for those patients, yet falsified patient medical records in order
                   to receive Government reimbursement. (DCIS)

                   A former employee of Emergency Physicians Billing Service (EPBS),
                   Oklahoma City, filed a qui tam suit alleging that EPBS and others
                   submitted fraudulent claims to CHAMPUS, Medicare, Medicaid and
                   private insurers by billing twice for services, “upcoding” to more
                   expensive services than those that were performed or billing for
                   unrendered services. Emergency services performed by Spectrum,
                   Incorporated, were billed by EPBS and allegedly contained fraudulent
                   claims. Spectrum agreed to pay a civil settlement of $3.1 million plus
                   $125,000 in fees to the relator’s attorneys. Other companies named in the
                   qui tam suit paid separate settlements to resolve issues in the complaint.
                   (DCIS/FBI/HHS/Oklahoma Attorney General’s Medical Fraud Control
                   Unit)

 Suspensions and   The number of contractors and individuals suspended and debarred as a
 Debarments        result of DoD criminal investigations are shown in Figure 2, page 35.
 Resulting from
 Investigations




                                         34
Semiannual Report to the Congress                                                               Chapter Two




                   SUSPENSIONS AND DEBARMENTS RESULTING FROM INVESTIGATIONS
                                           Defense Criminal Investigative Organization (DCIO)
                                                                                      Joint
                                    DCIS       CIDC          NCIS         OSI         DCIO         Total
 DoD CONTRACTOR ACTIONS
 Suspensions
     Companies                       18           1           5            0          18            42
     Individuals                     23           3          12            7          12            57
         Total                       41           4          17            7          30            99
 Debarments
     Companies                       14           1           6            4          19            44
     Individuals                     32           1          47           10          16          106
         Total                       46           2          53           14          35           150
                                               Figure 2


 Other Criminal             In addition to the matters listed above, the DCIOs conducted various
 Investigative              other significant investigations involving large-scale thefts and non-
 Results                    procurement related fraud. The results of those investigations are
                            presented in Figure 3, page 36. As in previous reports, the statistics
                            shown in the table do not include general crime investigations (other than
                            large-scale thefts) or counterintelligence activities.




                                                  35
Chapter Two                                                                                     Semiannual Report to the Congress




                                       .

                                           OTHER CRIMINAL INVESTIGATIVE RESULTS
                                                                                    Totals for Period
                                                             DOJ                 State/Local/Foreign                  Total
 LITIGATION RESULTS
 Indictments
       DCIS                                                         40                             12                          52
      CIDC                                                          18                              5                          23
       NCIS                                                         39                             17                          56
       OSI                                                            8                             3                          11
       Joint DCIO                                                     5                             0                           5
                 Total                                             110                             37                         147
 Convictions
       DCIS                                                         28                              5                          46
       CIDC                                                         41                             12                          34
       NCIS                                                         41                             19                          60
      OSI                                                           13                              4                          17
       Joint DCIO                                                     6                             0                           6
                 Total                                             129                             38                         167




                                                                                                             State/
                                                                                                             Local/
                                                           DoJ                          DoD                 Foreign           Total
MONETARY OUTCOMES                                                                       1               2

       DCIS                                             $22,650,000           $396,000         $7,079,000    $603,000     $30,728,000
       CIDC                                                 201,000             820,000         1,335,000    3,811,000        6,166,000
       NCIS                                                 414,000           2,147,000         2,101,000      59,000         4,721,000
       OSI                                                  146,000             294,000          260,000      440,000         1,139,000
       Joint DCIO                                            47,000                     0       2,711,000             0       2,758,000
                 Total                                  $23,458,000         $3,656,000        $13,485,000   $4,913,000    $45,513,000

1Administrative
                  settlements and recoveries, and results of military courts-martial.
2Investigative
              seizures and recoveries. Includes Government properties seized or otherwise recovered during investigations and
  may include items previously transferred to a Defense Reutilization and Marketing Office. Government property recovered by
  investigation is valued at the original acquisition price, which may exceed the current fair market value.


                                                                 Figure 3




                                                                     36
Semiannual Report to the Congress                                                             Chapter Two




 Examples of Other
 Criminal
 Investigations

  Theft                        Fred A. Fuchs and Roy D. Reagan were each found guilty on one count
                               of conspiracy to commit mail fraud, wire fraud, bribery, false statements
                               and theft. Fuchs, the former assistant director for Fire and Aviation
                               Management, U.S. Forest Service, was sentenced to 24 months
                               confinement, 3 years supervised release and a $50 special assessment.
                               Reagan, who purported to be a consultant to the Forest Service, was
                               sentenced to 30 months confinement, 3 years supervised release and a
                               $50 special assessment. Fuchs and Reagan conspired to steal excess
                                                               military aircraft (22 C-130As and 6 P-3As).
                                                               The theft included converting to their own
                                                               or others’ use a C-130A aircraft valued
                                                               between $1 million and $3 million. Fuchs
                                                               and Reagan convinced Air Force and
                                                               General Services Administration (GSA)
                                                               officials to transfer the aircraft from the
                                                               DoD to the Forest Service, claiming that the
                                                               aircraft would be used as Government-
                                                               furnished property on contracts between the
                                                               Forest Service and its contractors who
                                                               operate fire fighting aircraft. Reagan’s
   A stolen M-114 Armored Reconnaissance Vehicle seized during “consultant” role allowed him access to
   a DCIS investigation.                                       DoD facilities to identify, inspect and
                                                               acquire the aircraft on behalf of the Forest
                                                               Service. On receipt of the aircraft into
                               Forest Service inventory, Fuchs traded them to air tanker operators for
                               so-called "historic" aircraft under provisions of the Federal Property
                               Management Regulations (FPMR). The provisions of the FPMR that
                               allow for historic trades, however, do not apply to the Forest Service or to
                               the specific kind of trading executed by Fuchs. The estimated value of
                               the aircraft traded away by Fuchs is $28 million. Reagan received over
                               $1.2 million for his role in the trades, and Fuchs received enhancements
                               valued at $40,000 to his airline transport pilot's license. (DCIS/NCIS/
                               GSA/U.S. Department of Agriculture)

  Redistribution and        Investigating agents seized military equipment and armament, valued at
  Marketing Fraud           $5.6 million, from the Armed Forces Museum of St. Louis, Granite City,
                            Illinois. The deeds of gift for these items were revoked when it was
                            determined that Museum members certified military equipment had been
                            demilitarized when, in fact, it had not been demilitarized and the

                                                   37
Chapter Two                                                               Semiannual Report to the Congress




                                                                  individuals were involved in bartering
                                                                  and trading vari ous pieces of the
                                                                  military equipment. Under a deed of
                                                                  gift, the Government provides an item
                                                                  of military equipment to display for
                                                                  p u b l i c v i e w, b u t r e t a i n s t i t l e .
                                                                  Helicopters, rocket launchers and an
                                                                  M60A1 tank were among the more than
                                                                  80 items recovered. (DCIS/FBI)



   An M60A1 Main Battle Tank is recovered during a theft
   investigation.


HOTLINE                          The OIG, DoD, continues to encourage military members, DoD
                                 employees, DoD contractor employees and the public to contact the DoD
                                 Hotline to report allegations of fraud, waste and mismanagement.

                                 During this reporting period, the Hotline received 7,254 telephone calls
                                 and letters resulting in the initiation of 1,041 cases. During the same
                                 period, the Hotline closed 1,275 cases. The Hotline distributed 7,127
                                 Hotline posters and other Hotline informational materials to various DoD
                                 activities and DoD contractors in a continuing effort to promote use of
                                 the DoD Hotline. Since 1982, over $408 million has been recovered as a
                                 direct result of inquiries initiated in response to information provided to
                                 the Hotline.

                                 In July 1998, the DoD Hotline activated an interactive Internet website.
                                 The website (www.dodig.osd.mil/hotline) contains information about the
                                 Hotline’s mission and operations; the various types of information and
                                 suspected violations that should be reported to the Hotline; information
                                 about filing complaints of violations of the Military Whistleblower
                                 Protection Act and improper mental health referrals; information about
                                 obtaining Defense Hotline posters and other advertising materials; and
                                 helpful hypertext links to other DoD agency websites, such as the DFAS
                                 and the Defenselink. The website also features an on-line form allowing
                                 complainants to submit fraud, waste and mismanagement complaints
                                 directly from the website. Future plans are to link the website with the
                                 Military Service Inspectors General and other DoD component
                                 inspectors general.




                                                           38
Semiannual Report to the Congress                                                         Chapter Two




                                    OIG, DoD Hotline Website Homepage




 Significant Hotline        As a result of a confidential Hotline complaint, DCIS special agents
 Complaints                 substantiated allegations that a dining facility service provider
                            intentionally falsified Government documents to hide mismanagement
                            and theft. The complainant alleged the food service provider formed a
                            “team” whose function was to destroy the original records and then
                            recreate them using fictitious data. The plea bargain settlement consisted
                            of a $570,200 fine and corporate probation.

                            As a result of a Hotline complaint, a joint DCIS and FBI investigation
                            substantiated allegations that three individuals were involved in the
                            improper diversion and sale of Government property. The defendants
                            stole approximately 150 pieces of equipment, including a missile
                            launcher, a Sheridan tank, armored personnel carriers, heavy and light
                            vehicles and heavy construction equipment. In addition to receiving
                            between 36 and 97 months confinement, the codefendants were ordered
                            to pay $687,084 in restitution to the U.S. Government.

ADMINISTRATIVE              The Departmental Inquiries Office conducts investigations and also
INVESTIGATIONS              performs oversight of investigations conducted by the Military
                            Departments. Those investigations pertain to:


                                                   39
Chapter Two                                                                   Semiannual Report to the Congress




                                        • Allegations of reprisal against military members, Defense
                                          contractor employees and nonappropriated fund employee
                                          whistleblowers.

                                        • Allegations that military members were referred for mental
                                          health evaluations without being afforded the rights prescribed
                                          in the DoD Directive and Instruction pertaining to mental health
                                          evaluations of members of the armed forces.

                                        • Noncriminal misconduct allegations against senior military and
                                          civilian officials within the DoD.

 Whistleblower                   During the reporting period, the Special Inquiries Directorate received
 Reprisal Activity               164 complaints of whistleblower reprisal. Of these complaints, 75 did not
                                 meet the statutory criteria for investigation; an additional 26 were closed
                                                                after preliminary analysis determined further
                                                                inve stiga tion wa s not wa r ra nted. T h e
                                                                remaining 63 cases were investigated by
                                                                Special Inquiries staff or referred to Military
                                                                Departmen t Inspecto rs Gen eral for
                                                                investigation. We closed 171 cases during the
                                                                reporting period. Approximately 6 percent of
                                                                the cases contained one or more substantiated
                                                                allegations. Thirty-two cases included alleged
                                                                violations of the DoD Directive on referrals
                                                                f o r m e n t a l h e a l t h e v a l u a t i o n . We
                                                                substantiated procedural violations in four of
   Stolen DoD equipment being searched for explosives or drugs. these cases. Figures 4 and 5 (page 41)
                                                                illustrate results of whistleblower reprisal
                                                                activity during the period.

 Amendments to                 The Report of the Committee on National Security that accompanied the
 Title 10, United              Fiscal Year 1998 National Defense Authorization Act directed the OIG,
 States Code,                  DoD, to submit a report examining the statutory framework for the
 Section 1034                  protection of military whistleblower activity, assessing the effectiveness
                               of the implementation of the law and recommending appropriate
                               statutory changes. As a result of that report, the Strom Thurmond
                               National Defense Authorization Act for Fiscal Year 1999 includes
                               amendments to 10 U.S.C. 1034 that will improve the timeliness of
                               processing military whistleblower reprisal cases. The statutory change
                               that will have the greatest impact on timeliness provides that Inspectors
                               General of the Military Departments have the authority to grant coverage
                               under the law to reprisal allegations they receive directly (previously

                                                         40
Semiannual Report to the Congress                                                                                                                         Chapter Two




                                               Whistleblower Reprisal Inquiries
                                                By Category of Employee *
                                                      Open As Of September 30, 1998

                          200                      19 0
                          180
                          160
                          140
                          120
                          100
                           80
                           60
                           40
                           20                                                            13                                    9

                            0
                                               M ilitary                               N AF                             Contract

                 * This graph provides a breakdown of reprisal cases according to the category of employee who filed the complaint (Service
                 Member, non-appropriated fund employee or employee of a Defense contractor). In addition to the 212 reprisal cases shown here,
                 Special Inquiries also had 14 open cases involving other matters, such as alleged improper mental health evaluations.




                                                                                 Figure 4




                                      M ilitary W h istleb low er R ep risal Inq u iries
                                            B y O ffice C ond uctin g R eview *
                                                       O p en A s O f Sep tem ber 30, 1998

                        1 00
                          90                                                                                                               86

                          80
                          70              61
                          60
                          50
                          40                                                     36
                                                             27
                          30
                          20
                          10                                                                         1                   1
                           0
                                         Army               Na vy              USAF               U SM C            De fe nse           Spe cial
                                                                                                                    Ag enci es         Inquiries

                    * T his graph provides a b reakdow n of m ilitary w histleblow er reprisal inquiries according to the organizations conduct ing the
                    inquir y. Inquiries com pleted by other organizations are subm itted to the S pecial Inquiries D irectorate for review . T he 86
                    Specia l Inquiries cases in clude initial analysis of new com plaints and active investigations.




                                                                                 Figure 5



                                                                                      41
Chapter Two                                                Semiannual Report to the Congress




                   only those allegations submitted to the OIG, DoD, were covered, and a
                   member submitting reprisal allegations to his Service IG would have to
                   resubmit, or have the Service IG submit on his or her behalf, the
                   allegations to the OIG, DoD).

 Protections for   In response to direction in the Conference Report for the FY 1998 DoD
 Classified        Authorization Act, Special Inquiries staff compiled a report on existing
 Whistleblowers    mechanisms for making classified fraud, waste and abuse disclosures;
                   awareness of these mechanisms; and protections for those who use the
                   mechanisms. We consulted with the Inspectors General of the Military
                   Departments and Defense intelligence agencies and researched relevant
                   statutes, executive orders and regulations.

 Examples of       An Army Reserve command sergeant major received an adverse rating,
 Substantiated     and his right to make a protected communication was restricted, in
 Military          reprisal for making complaints regarding mismanagement and regulatory
 Whistleblower     violations to an Inspector General.
 Reprisal Cases
                   A Navy lieutenant received an adverse fitness report in reprisal for her
                   father’s Hotline complaint regarding misconduct on the part of the
                   lieutenant’s commanding officer. The commanding officer received a
                   nonpunitive letter of caution, and the adverse fitness report was removed
                   from the lieutenant’s official record.

                   An Air Force master sergeant was removed as First Sergeant and
                   received an adverse enlisted performance report and letter of reprimand
                   with an un favorable i nformation file entry in reprisal for his
                   communications to Inspectors General regarding improprieties by his
                   superiors.

                   An Army sergeant was reassigned because she made an eq ual
                   opportunity complaint and complained of unfair treatment to an Inspector
                   General. The individual responsible for initiating her reassignment
                   received a general officer letter of reprimand and was relieved of
                   leadership responsibilities.

                   An Army National Guard lieutenant colonel received a general officer
                   letter of reprimand in reprisal for his protected communications to the
                   State Adjutant General and to an Inspector General regarding alleged
                   violations of regulations and abuse of authority on the part of the senior
                   official.




                                        42
Semiannual Report to the Congress                                                          Chapter Two




 Senior Official            Figures 6 and 7 (page 44) show results of activity on senior official cases
 Inquiries                  during the period. The number of open cases continued to decline as the
                            Department made significant progress in completing aged investigations.
                            On September 30, 1998 there were 233 ongoing investigations, down
                            from the 264 cases that we reported open on March 31, 1998. In the
                            ensuing 6 months, 152 cases were opened, 212 senior official cases were
                            closed; 54 (25 percent) of the closed cases contained substantiated
                            allegations.

 Examples of                In an investigation that attracted significant departmental, congressional
 Substantiated              and media attention, allegations were substantiated that a senior official
 Senior Official            engaged in a pattern of inappropriate conduct during an overseas
 Cases                      assignment that included adultery with the spouse of one subordinate and
                            improper relationships with three other spouses of subordinate officers.
                            In addition, the senior official sanctioned the misuse of Government
                            funds for travel by one of those spouses and made false and misleading
                            statements in an effort to deceive others concerning his conduct. The
                            results of this investigation were provided to the cognizant Military
                            Department, which is currently evaluating alternatives for corrective
                            action.

                            Another investigation concluded that a DoD official, who served as a
                            director of an overseas facility, engaged in a pattern of behavior which
                            ignored ethics regulations, displayed a lack of cost consciousness and
                            demonstrated a propensity for obtaining personal benefits at Government
                            expense. In that regard, the investigation found that the senior official
                            misused Official Representation Funds that were entrusted to him, used a
                            foreign flag air carrier for official travel on one occasion in violation of
                            regulations, obtained a variety of personal services from his Government
                            secretary and charged the Government for personal long distance calls.
                            Corrective action, to include reimbursement to the Government, has been
                            proposed.

 Review of Senior           In addition to investigative work conducted during this period, a
 Official                   comprehensive review was completed of administrative investigations
 Investigations             into allegations against senior officers conducted by the Military
 Conducted by the           Department IGs. The review was initiated at the direction of the Senate
 Military                   Committee on Armed Services, which observed that investigations
 Departments                involving senior officers in the reserve components apparently take more
                            time to complete than investigations involving active component
                            officers. The Committee expressed concern with the perception that
                            Military Service IGs were giving preferential treatment to active
                            component investigations. 1/

                                                  43
Chapter Two                                                                                        Semiannual Report to the Congress




                                                      P rogram Integrity
                                   Senior O fficial Inquiries O pen
                                                       A s of Se ptem ber 30, 1998

                 160
                 140        13 2

                 120
                 100
                  80
                                                                                                   48
                  60
                  40
                                               21              16                                              15
                  20                                                               1
                   0
                          A rmy           N avy               USAF             USM C           Defe nse     P rogram
                                                                                               A gencies    Integrity
              This graph provides a breakdow n of senior official
              cases according to the organization w hich is
              conducting the inquiry. Inquiries com pleted by                  T otal O pen C ases: 233
              other organizations are subm itted to the Program
              Integrity D irectorate for review .



                                                              Figure 6



                                                       Program Integrity
                 Nature of Substantiated Allegations Against Senior Officials
                                                    During 2nd Half FY1998

                                                 Sexual
                                               Haras sment/
                                                Improper
                                                                                                Abuse of
                                               Relationship
                                                                         Failure to Act        Authority/
                                                  15%
                                                                              4%               Favoritism
                                                                                                 26%
                           Other M isconduct
                                 14%




                                          Improper                               M is us e Gov’t
                                       Personnel Action                            Property/
                                            15%                                   Resources
                                                                                      26%




                              Total Cases: 212                      Substantiated: 54


                                                              Figure 7


                                                                    44
Semiannual Report to the Congress                                                                           Chapter Two




                            The report was provided to the Congress in May 1998. On an overall
                            basis, the report concluded that senior officer investigations conducted
                            by the Service IGs were, with few exceptions, of high quality, impartial,
                            thorough and satisfactorily addressed matters at issue. Although
                            investigations of allegations against National Guard senior officers took
                            longer to complete than those involving active component officers, the
                            report concluded that Military Service IGs did not accord active
                            component investigations greater priority or otherwise handle them on a
                            preferential basis. Rather, the report determined that the primary cause
                            for the additional time required for National Guard cases involved factors
                            unique to National Guard organizations that generally did not exist in
                            active component units. We did note several process problems that
                            inhibited timely investigation on the part of the Department of the Army
                            Inspector General.

AUDITING                    The OIG, DoD auditors and those of the Military Departments issued 292
                            reports during the period, identifying over $1.9 billion in potential
                            monetary benefits and recommending potential improvements across a
                            wide spectrum of DoD management areas. See Appendix A for a list of
                            reports, sorted by major subject area. Appendices B and C list OIG
                            reports identifying potential monetary benefits and overall DoD internal
                            audit followup activities, respectively. The DCAA also continued
                            providing essential support to DoD contracting officers, as summarized
                            in Appendix D.

 IG, DoD, Testimony         The Inspector General testified before the House Subcommittee on
                            Government Management, Information and Technology regarding DoD
                            financial management on April 16, 1998. That testimony addressed many
                            of the issues included in the discussion of the Financial Management
                            focus area in Chapter One.

 Single Audit               The Inspector General Act of 1978, as amended, requires that the OIG,
 Program                    DoD take steps to assure that work performed by non-Federal auditors in
                            support of Government programs complies with the standards established
                            by the Comptroller General. The overall objective of the Single Audit
                            Program is to reduce the audit burden while ensuring that Government
                            funds are properly accounted for and expended. During this 6-month
                            period, the OIG, DoD issued 7 quality control review reports and
                            completed 12 desk reviews on a sample of reports. Although quality was


                            1.
                                  U.S. Senate. Committee on Armed Services. National Defense-Authorization Act for Fiscal
                                 Year 1999 (to accompany S. 924). (S.Rept. 105-29, pp. 279-280).


                                                         45
Chapter Two                                                  Semiannual Report to the Congress




                     generally good, deficiencies were found in supervisory review, working
                     paper documentation and engagement letters.

                     The OIG, DoD is participating in a President’s Council on Integrity and
                     Efficiency (PCIE) Audit Committee effort to develop revised guidelines
                     for reviews of an independent auditor's reports and working papers. The
                     guidelines are being revised to reflect the 1996 Amendments to the
                     Single Audit Act of 1984, the revised OMB Circular A-133 and its
                     Compliance Supplement. The OIG, DoD also established a DoD Single
                     Audit website, which lists DoD cognizant organizations, results of the
                     desk and quality control reviews, a periodic download of the Department
                     of Commerce's Clearinghouse database of information about Federal
                     award recipients that receive DoD funds and links to related sites on the
                     internet. The website is www.dodig.osd.mil/aud/apo/main.html.

 Readiness Related   Many of the logistics issues and virtually all of the Year 2000 conversion
 Issues              findings discussed in Chapter One have direct readiness connotations. In
                     addition, DoD auditors and inspectors continued reporting during the
                     period on the impact of high operating tempo and funding constraints on
                     personnel and equipment readiness, as well as other readiness issues not
                     generally considered to pertain to DoD high-risk management areas. If
                     resources permit, the DoD audit and inspection community can continue
                     providing highly relevant, independent assessments of force readiness.
                     Such feedback is particularly needed in light of widespread concern
                     about readiness shortfalls.

                     One readiness area of particular concern is chemical/biological (CB)
                     warfare defense. The OIG, DoD is conducting a series of audits at the
                     request of the Assistant to the Secretary of Defense for Counterpro-
                     liferation and Chemical/Biological Defense. The first of our planned half
                     dozen reports was issued in September 1997 and discussed CB
                     survivability shortfalls in mission-essential military equipment. The
                     second report, completed during this reporting period, focused on unit-
                     level CB training. The audit indicated that, except for Navy ships,
                     realistic training was generally lacking. At 187 of 232 units reviewed, CB
                     defense had not been fully integrated into unit mission training. As a
                     result, commanders could not reliably assess and report unit readiness to
                     conduct wartime missions under contaminated conditions. The
                     Department agreed with all audit recommendations or responsive
                     alternatives to address those problems.

                     We plan to issue four more reports on this subject during the reporting
                     period, starting October 1, 1998. In the next semiannual report to the

                                          46
Semiannual Report to the Congress                                                          Chapter Two




                            Congress, we will address the entire series of reports in detail in a
                            separate focus area discussion.

 Safety                     In June 1997, the Boston Globe reported that more than 29,000 military
                            personnel had died in accidents since 1979. Senator John Kerry requested
                            the DoD to consider the implications of that statistic, and the Secretary of
                            Defense tasked the OIG, DoD to assess DoD safety performance. To
                            avoid duplication with an ongoing GAO review of accidental fatalities
                            during duty hours, the review focused on 4,698 accidental deaths that
                            occurred during off-duty hours from 1988 through 1996.

                            The review indicated that the accidental off-duty death rate in DoD per
                            100,000 individuals was not disproportionate in comparison to the U.S.
                            civilian population and declined 31 percent from 1988 through 1996. The
                            motor vehicle death rate, the largest category of accidental off-duty
                            deaths, declined by 34 percent for the same period. While the DoD had
                            made progress in reducing the off-duty accidental fatality rate, the rate
                            plateaued from 1993 through 1996. In June 1998, the Secretary of
                            Defense implemented the report’s recommendation to issue additional
                            guidance reaffirming the Department’s commitment to safe working and
                            living conditions for all personnel.

INTELLIGENCE                For information regarding specific work performed, see the Classified
REVIEW                      Annex to this report.




                                                  47
Chapter Two                                    Semiannual Report to the Congress




              This page left blank intentionally




                            48
Semiannual Report to the Congress                                                                         Appendix A


                        APPENDIX A*
REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



  Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued
  by the IG, DoD.

  Copies of reports may be obtained from the appropriate issuing office by calling:

            OIG, DoD                                       Army Audit Agency
            (703) 604-8937                                 (703) 681-9863

            Naval Audit Service                            Air Force Audit Agency
            (703) 681-9126                                 (703) 696-8027




                             Summary of Number of Reports by Issue Area
                               April 1, 1998, through September 30, 1998

                                                IG, DoD          Military Depts.                  Total
   Finance and Accounting                        40                       62                         102
   Logistics                                     16                       30                          46
   Information Technology                        24                       20                          44
   Acquisition Oversight                         21                       18                          39
   Construction and Installation                   7                      15                          22
   Quality of Life                                 4                      14                          18
   Health Care                                     3                        7                         10
   Environment                                     2                        5                           7
   Intelligence                                    1                        3                           4
   Total                                        118                      174                         292

           The IG, DoD, also issued two reports on audit and criminal investigative oversight reviews and two
            testimony reports.




*Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).




                                                         A-1
Appendix A                                                           Semiannual Report to the Congress


                                  98-128 Contract Support               98-197 Management of
ACQUISITION                       Services for the Office of the        Contract Waivers and
PROGRAM AND                       Assistant to the Secretary of         Deviations for the Trident II
                                  Defense (Nuclear and Chemical         Missile System (9/2/98)
CONTRACTOR                        and Biological Defense
OVERSIGHT                         Programs) (5/6/98)                    98-214 Implementation of the
                                                                        DoD Technology Transfer
                                  98-131 Food Service Contracts         Program (9/28/98)
IG, DoD                           at DoD Dining Facilities
                                  (5/7/98)                              Army Audit Agency
98-099 Continued Use of a                                               AA 98-145 Rotary Wing
Single Contractor for Contract    98-132 Procurement Practices          Aircraft Flight Simulators Army
Reconciliation Work (4/2/98)      and Procedures for Obtaining          (4/17/98)
                                  Contractor Support at Defense
                                  Finance and Accounting Service        AA 98-162 Acquisition
98-101 Evaluation on the
                                  -- Denver (5/8/98)                    Planning -- Phase III
Hellfire Missile System Remote
                                                                        (CLASSIFIED) (4/7/98)
Control Circuit Breakers on the
AH-64 Apache Attack               98-133 Foreign Comparative
                                  Testing Program (5/13/98)             AA 98-193 Using Tank
Helicopter (4/3/98)                                                     Weapon Gunnery Simulation
                                  98-138 Management of                  System/Precision Gunnery
98-109 Relocation of the                                                System for Force-on-Force
                                  Resources at the DoD Electronic
System Program Office and                                               Training (5/11/98)
                                  Commerce Office (5/27/98)
Logistics Support for the
F-117A Stealth Fighter                                                  AA 98-207 Service Contracts,
(4/10/98)                         98-149 Defense Special                U.S. Army Recruiting
                                  Weapons Agency Advisory               Command, Fort Knox,
                                  Panel on the Nuclear Weapon           Kentucky (5/29/98)
98-115 Acquisition of the A3      Effect Program (6/8/98)
Upgrade to the Bradley Fighting
Vehicle (FOR OFFICIAL USE                                               AA 98-209 Funding for
ONLY) (4/17/98)                   98-152 Contracting Practices          Sensitive Contracts
                                  for the Installation Restoration      (CLASSIFIED) (5/29/98)
                                  Program at Massachusetts
98-119 Allegation of Cost         Military Reservation (6/15/98)        AA 98-210 Contract
Mischarging by Defense                                                  Termination Process, U.S. Army
Telecommunications Service --     98-160 Management Oversight           Aviation and Missile Command,
Washington (4/22/98)              of the Capabilities-Based             Redstone Arsenal, Alabama
                                  Munitions Requirements                (6/10/98)
98-121 International              Process (CLASSIFIED)
Cooperative Research and          (6/22/98)                             AA 98-239 Acquisition
Development Program                                                     Planning -- Phase IV
4/27/98)                                                                (CLASSIFIED) (5/27/98)
                                  98-167 Army Quantitative
                                  Requirements for Munitions
                                                                        AA 98-243 Implementing
98-122 Hotline Allegations        (CLASSIFIED) (6/26/98)
                                                                        Acquisition Reform Initiatives
Involving Contracts for                                                 in Base Operations Contracting,
Programmed Depot                  98-172 Contract Terminations          III Corps and Fort Hood, Texas
Maintenance of KC-135 Aircraft    at Defense Supply Center              (6/19/98)
(4/24/98)                         Columbus and Defense Supply
                                  Center Richmond (7/2/98)              AA 98-253 Planning for
98-125 Protection of the                                                Software Support, U.S. Army
Comanche Helicopter Against       98-189 Procuring Fuel and             Tank-Automotive and
Radio Frequency Weapons           Ground Handling Services at           Armaments Command, Warren,
(CLASSIFIED) (4/28/98)            Commercial Airports (8/18/98)         Michigan (6/30/98)


                                                A-2
Semiannual Report to the Congress                                                         Appendix A


AA 98-261 Followup Audit            98-137 Unaccompanied              AA 98-160 Base Realignment
Savings from Acquisition            Enlisted Personnel Housing        and Closure 1995 Construction
Reform (7/31/98)                    Requirements for Fort Lewis,      Requirements, Fort Pickett,
                                    Washington (5/26/98)              Blackstone, Virginia (4/16/98)
AA 98-273 Combining Armor
Simulator Capability, Fort          98-159 Defense Information        AA 98-205 Base Realignment
Monroe, Virginia (7/23/98)          Systems Agency Megacenter         and Closure 1995 Construction
                                    Consolidation (6/22/98)           Requirements, U.S. Army Tank-
AA 98-282 Contract                                                    Automotive and Armaments
Termination Process (8/11/98)                                         Command, Warren, Michigan
                                    98-175 Summary Report on the
                                    Audit of Defense Base             (5/29/98)
Naval Audit Service
                                    Realignment and Closure
035-98 Navy Tugboat                 Construction Budget Data for      AA 98-251 Reusing Tank-
Requirements (4/24/98)              FYs 1997 and 1998 (7/2/98)        Automotive Items (6/19/98)

038-98 Administering                98-176 Base Realignment and       AA 98-269 Base Realignment
Contracting Actions without         Closure Transfer of the           and Closure 1995 Construction
Final Prices at Supervisors of      Common-Use Ground                 Requirements, Defense
Shipbuilding, Conversion, and       Communications Electronics        Investigative Service
Repair (6/2/98)                     Maintenance Mission from the      Administrative Facility, Fort
                                    Sacramento Air Logistics Center   Meade, Maryland (6/30/98)
043-98 Major Acquisition            to the Tobyhanna Army Depot
Budget Process (8/31/98)            (7/6/98)                          AA 98-270 Base Realignment
                                                                      and Closure 1995 Construction
048-98 Program Executive            98-198 Allegations on the Gulf    Requirements, Hawthorne Army
Office (Mine Warfare) Financial     States Initiative Program         Depot, Hawthorne, Nevada
Management Process and the          (9/9/98)                          (6/30/98)
Surface Mine Warfare Systems
Program Office (9/28/98)
                                    98-199 Defense Base               AA 98-290 Power Generations
Air Force Audit Agency              Realignment and Closure           Operations, Northwestern
                                    Budget Data for Modernization     Division, U.S. Army Corps of
96064002 Joint Direct Attack        of Building 196, Washington       Engineers, Portland, Oregon
Munition Acquisition and            Navy Yard, Washington, D.C.       (8/11/98)
Logistics Planning (9/14/98)        (9/11/98)
                                                                      AA 98-293 Closeout Plans --
97064027 Government-                Army Audit Agency                 Republic of Panama (8/24/98)
Furnished Material Provided to
the Boeing Guidance Repair          AA 98-048 Base Realignment        AA 98-295 Barracks
Center (8/14/98)                    and Closure 1995 Construction     Requirements, U.S. Army,
                                    Requirements, Tobyhanna Army      Europe and Seventh Army,
                                    Depot, Tobyhanna,                 Heidelberg, Germany (9/10/98)
CONSTRUCTION                        Pennsylvania (4/2/98)
AND INSTALLATION                                                      AA 98-323 Family Housing
                                    AA 98-149 Base Realignment        Requirements, Camps
SUPPORT                             and Closure 1995 Construction     Humphreys and Carroll,
                                    Requirements, Fitzsimmons         Republic of Korea (9/22/98)
                                    Army Medical Center, Aurora,
IG, DoD                             Colorado (4/16/98)                Air Force Audit Agency
98-130 Costs and Savings for
1993 Defense Base                   AA 98-153 Eliminating             97052001 Base Comprehensive
Realignments and Closures           Hazardous Material in Weapon      Plan Development and Use
(5/6/98)                            Systems (4/15/98)                 (5/1/98)


                                                  A-3
Appendix A                                                             Semiannual Report to the Congress


97052033 Advisory Report,                                                 98-108 Inspector General,
Base Realignment and Closure        FINANCE AND                           DoD, Oversight of the Air Force
Lessons Learned, 1993 and 1995      ACCOUNTING                            Audit Agency Audit of the
(4/7/98)                                                                  FY 1997 Air Force Working
                                                                          Capital Fund Financial
98052010 Outgrant Program           IG, DoD                               Statements (4/7/98)
(8/18/98)
                                    98-100 Fund Balance with              98-110 Financial Accounting
                                    Treasury Account in the FY            for the Defense Contract Audit
                                    1996 Financial Statements of the      Agency (4/10/98)
ENVIRONMENT                         Defense Business Operations
                                    Fund (4/2/98)
                                                                          98-116 Accounting for Defense
IG, DoD                             98-102 Inspector General,             Logistics Agency Supply
                                    DoD, Oversight of the Army            Management Receivables
98-113 State Certification of       Audit Agency Audit of the             (4/20/98)
Underground Storage Tanks           Army General Fund Financial
(4/15/98)                           Statements for FYs 1997 and           98-120 Compilation of the FY
                                    1996 (4/7/98)                         1996 Army Financial
98-213 Evaluation Report on                                               Statements at the Defense
Allegations of Environmental        98-103 Inspector General,             Finance and Accounting Service
Contamination and Hazards           DoD, Oversight of the Army            Indianapolis Center (4/23/98)
Affecting the Inupiat               Audit Agency Audit of the FYs
Community of the Arctic Slope,      1997 and 1996 Financial
                                                                          98-134 Payroll Expenses
Alaska (9/28/98)                    Statements of the U.S. Army
                                                                          Reported by the Defense
                                    Corps of Engineers, Civil Works
                                                                          Finance and Accounting Service
Army Audit Agency                   Program (4/7/98)
                                                                          Columbus Center (5/14/98)
AA 98-166 Environmental             98-104 Inspector General,
                                    DoD, Oversight of the Naval           98-139 Financial Statements
Remediation, Camp Bonneville,
                                    Audit Service Audit of the Navy       Presentation of DoD Progress
Vancouver, Washington
                                    General Fund Financial                Payments (5/27/98)
(4/30/98)
                                    Statements for FYs 1997 and
                                    1996 (4/7/98)                         98-146 Internal Controls and
AA 98-224 Environmental
Remediation, Fort Sheridan,                                               Compliance with Laws and
                                    98-105 Inspector General,             Regulations for the FY 1997
Fort Sheridan, Illinois (5/29/98)   DoD, Oversight of the Army            Financial Statements of the Joint
                                    Audit Agency Audit of the FY          Logistics Systems Center
Naval Audit Service                 1997 Army Working Capital             Working Capital Fund (6/5/98)
                                    Fund Financial Statements
045-98 Budgeting for Fiscal         (4/7/98)
Year 1997 Environmental                                                   98-148 Internal Controls and
Compliance Projects at the          98-106 Inspector General,             Compliance with Laws and
Commander in Chief, U.S.            DoD, Oversight of the Naval           Regulations for the FY 1997
Atlantic Fleet (9/18/98)            Audit Service Audit of the Navy       Financial Statements of the
                                    Working Capital Fund Financial        Defense Logistics Agency
Air Force Audit Agency              Statements for FYs 1997 and           Working Capital Fund (6/5/98)
                                    1996 (4/7/98)
98052008 Environmental                                                    98-151 Internal Controls and
Compliance Assessment and           98-107 Inspector General,             Compliance with Laws and
Management Program (8/7/98)         DoD, Oversight of the Air Force       Regulations for the Defense
                                    Audit Agency Audit of the             Finance and Accounting Service
98052012 Followup Audit,            FY 1997 Air Force General             Working Capital Fund Financial
Natural and Cultural Resources      Fund Financial Statements             Statements for FY 1997
(8/5/98)                            (4/7/98)                              (6/12/98)


                                                  A-4
Semiannual Report to the Congress                                                        Appendix A


98-158 Internal Controls and        98-181 FY 1997 Financial         98-209 FY 1997 Financial
Compliance with Laws and            Statements for the National      Statements for the Defense
Regulations for the Defense         Security Agency                  Intelligence Agency
Commissary Agency Financial         (CLASSIFIED) (7/22/98)           (CLASSIFIED) (9/24/98)
Statements for FY 1997
(6/17/98)                           98-185 Financial Management      98-210 Compilation Process for
                                    of the RAH-66 Comanche           the DoD Consolidated Financial
98-161 Internal Controls and        Helicopter Program (8/6/98)      Statements for FY 1997
Compliance with Laws and                                             (9/24/98)
Regulations for the DoD
                                    98-186 Statement of
Consolidated Financial                                               98-212 Compilation of the FY
                                    Accountability Reconciliation
Statements for FY 1997                                               1997 Army General Fund
                                    Procedures for Defense Finance
(6/22/98)                                                            Financial Statements at the
                                    and Accounting Service
                                    Columbus Center, Disbursing      Defense Finance and
98-162 Internal Controls and        Station 6551 (8/14/98)           Accounting Service Indianapolis
Compliance with Laws and                                             Center (9/24/98)
Regulations for the FY 1997
Defense Information Systems         98-191 Financial and Cost
                                    Aspects of Other Transactions    98-215 The Inventory
Agency Working Capital Fund                                          Revaluation Method and
Financial Statements (6/24/98)      (8/24/98)
                                                                     General Ledger Accounting
                                                                     Treatment Used in Compiling
98-164 Internal Controls and        98-192 Accounting Procedures     the FY 1997 Air Force Working
Compliance with Laws and            at Defense Finance and           Capital Fund Financial
Regulations for the Defense         Accounting Service Operating     Statements (9/28/98)
Security Assistance Agency          Location Norfolk and the
Financial Statements for FY         Norfolk Naval Shipyard           98-216 Compilation of the FY
1997 (6/25/98)                      (8/25/98)                        1997 Army Working Capital
                                                                     Fund Financial Statements
98-166 Internal Controls and        98-200 FY 1997 DoD               (9/29/98)
Compliance with Laws and            Superfund Financial
Regulations for the FY 1997         Transactions (9/16/98)           98-217 Compilation of the FY
National Defense Stockpile                                           1997 Navy General Fund
Transaction Fund Financial          98-201 FY 1997 Financial         Financial Statements at the
Statements (6/25/98)                Reporting by the Defense         Defense Finance and
                                    Automated Printing Service       Accounting Service Cleveland
98-171 Internal Controls and        (9/23/98)                        Center (9/30/98)
Compliance with Laws and
Regulations for the DoD             98-204 Reporting and             Army Audit Agency
Military Retirement Trust Fund      Disclosing Intragovernmental
Financial Statements for FY         Transactions for the FY 1997     AA 98-147 Army Working
1997 (6/30/98)                      DoD Consolidated Financial       Capital Fund FY 97 Financial
                                    Statements (9/21/98)             Statements -- Fund Balance with
98-177 Payroll Expenses                                              Treasury (5/1/98)
Reported by the Defense
Finance and Accounting Service      98-205 Financial                 AA 98-151 Army Working
Cleveland Center (7/9/98)           Management Practices in the      Capital Fund FY 97 Financial
                                    Military Sealift Command         Statements -- Accounts
98-178 Internal Controls and        (9/25/98)                        Receivable, Federal (4/10/98)
Compliance with Laws and
Regulations for the FY 1997         98-208 Major Deficiencies        AA 98-163 Army Working
Financial Statements of Other       Preventing Favorable Audit       Capital Fund FY 97 Financial
Defense Organizations               Opinions on the FY 1997 DoD      Statements -- Unearned
(7/13/98)                           Financial Statements (9/23/98)   Revenue (5/1/98)


                                                  A-5
Appendix A                                                           Semiannual Report to the Congress


AA 98-171 Army’s Principal        AA 98-248 FY 97 Financial             AA 98-357 Program Objective
Financial Statements for Fiscal   Statements Report on Internal         Memorandum 98-03
Years 1997 and 1996 -- Report     Controls and Compliance with          Efficiencies -- Workload
on Internal Controls and          Laws and Regulations, U.S.            Benchmarking and Electronics
Compliance with Laws and          Army Corps of Engineers, Civil        Contracting (9/18/98)
Regulations (4/9/98)              Works, Washington, DC
                                  (6/29/98)                             AA 98-358 Program Objective
AA 98-172 Army’s Principal                                              Memorandum 98-03
Financial Statements for Fiscal   AA 98-249 Audit of Corps of           Efficiencies -- Using Credit
Years 1997 and 1996 --            Engineers FY 97 Financial             Cards (9/18/98)
Accountability for Army           Statements, Lessons Learned
Mission Equipment (5/4/98)        from the Audit of the                 Naval Audit Service
                                  Southwestern Division
AA 98-173 Army’s Principal        (6/12/98)                             031-98 Department of the Navy
Financial Statements for Fiscal                                         Principal Statements for Fiscal
Years 1997 and 1996 --            AA 98-256 Army Working                Years 1997 and 1996: Reports
Financial Reporting of            Capital Fund FY 97 Financial          on Internal Controls and
Environmental Liabilities         Statements -- Accounts Payable,       Compliance with Laws and
(5/11/98)                         Federal and Non-Federal               Regulations (3/31/98)
                                  (6/30/98)
AA 98-174 Army’s Principal                                              033-98 Obligation of Funds for
Financial Statements for Fiscal                                         Commercial Emulation
Years 1997 and 1996 --            AA 98-257 Army Working
                                                                        Equipment at Shore-Based
Financial Reporting of Real       Capital Fund FY 97 Financial
                                                                        Activities (4/7/98)
Property, Natural Resources,      Statements -- Followup Issues
and Leases (5/11/98)              (6/30/98)
                                                                        036-98 Auditor General
                                                                        Advisory: Trends in
AA 98-196 FY 97 Financial         AA 98-259 Army Working                Department of the Navy
Statements, U.S. Army Corps of    Capital Fund FY 97 Financial          Financial Audits (5/8/98)
Engineers, Southwestern           Statements -- Inventory -
Division, Civil Works, Dallas,    Government-Furnished Material
                                  (6/30/98)                             039-98 Followup on the
Texas (5/1/98)
                                                                        Validity of Selected
                                                                        Unliquidated Operation and
AA 98-198 Army Working            AA 98-264 Corps of Engineers          Maintenance, Marine Corps
Capital Fund FY 97 Financial      Financial Management System           Obligations (7/13/98)
Statements -- Inventory, Net -    (6/30/98)
Process of Assembly/
Disassembly (5/8/98)                                                    040-98 Department of the Navy
                                  AA 98-278 Program Objective           Principal Statements for Fiscal
                                  Memorandum 98-03                      Years 1997 and 1996: Plant
AA 98-211 Army Working            Efficiencies -- Consolidating
Capital Fund FY 97 Financial                                            Property (7/23/98)
                                  Contracting Offices (7/31/98)
Statements -- Advances and
Prepayments, Non-Federal                                                041-98 Duplicate and
(6/30/98)                         AA 98-284 Program Objective           Erroneous Payments (8/7/98)
                                  Memorandum Efficiency for
AA 98-229 Army Working            Debt Avoidance (8/18/98)              042-98 Quality Control
Capital Fund FY 97 Financial                                            Review: “Joint Contracting for
Statements -- Allowance for       AA 98-302 Tracking                    Depot Maintenance of
Unrealized Holding Gains and      Efficiencies -- Power Projection      Secondary Items” (8/20/98)
Losses (6/12/98)                  Platforms (9/2/98)
                                                                        044-98 Department of the Navy
AA 98-232 Use of Activity-        AA 98-308 Tracking                    Principal Statements for Fiscal
Based Costing in Developing       Efficiencies -- Paid Parachutist      Years 1997 and 1996: War
Reimbursable Rates (6/16/98)      Authorizations (8/28/98)              Reserves (9/3/98)


                                                 A-6
Semiannual Report to the Congress                                                        Appendix A


046-98 Department of the Navy       97053004 Managerial Cost         97068019 Selected Accounts
Principal Statements for Fiscal     Accounting, Fiscal Year 1997     Supporting the Air Force Report
Years 1997 and 1996: Financial      Air Force Consolidated           on Budget Execution, Air Force
Statement Preparation,              Financial Statements (7/9/98)    Working Capital Fund
Presentation, and Disclosure                                         (6/29/98)
(9/28/98)                           97053007 Revenue and Other
                                    Financing Sources, Fiscal Year   97068021 Selected Expense
047-98 Department of the Navy       1997 Air Force Consolidated      Accounts, Depot Maintenance
Principal Statements for Fiscal     Financial Statements (7/10/98)   Activity Group, Fiscal Year
Years 1997 and 1996: Accounts                                        1997 (6/29/98)
Receivable (9/18/98)                97053008 Supplementary
                                                                     97068040 Budgetary
                                    Stewardship Reporting, Fiscal
049-98 Fiscal Years 1997 and                                         Accounting for the Air Force
                                    Year 1997 Air Force
1996 Consolidated Financial                                          Working Capital Fund and the
                                    Consolidated Financial
Statements of the Department of                                      Transportation Services Activity
                                    Statements (7/22/98)
the Navy Working Capital Fund:                                       Group (5/27/98)
Reportable Conditions               97053014 Military Pay, Fiscal
(9/28/98)                                                            97068042 Selected Revenue
                                    Year 1997 Air Force              Accounts and General Ledger
                                    Consolidated Financial           Reporting, Airlift Services
051-98 Department of the Navy       Statements (6/26/98)
Principal Statements for Fiscal                                      Division, Transportation
Years 1997 and 1996: Invested                                        Services Activity Group, Fiscal
                                    97053015 Civilian Pay, Fiscal    Year 1997 (4/29/98)
Capital (9/28/98)
                                    Year 1997 Air Force
                                    Consolidated Financial           98053011 Advisory Report,
052-98 Department of the Navy       Statements (8/27/98)             Federal Accounting Standards
Principal Statements for Fiscal
                                                                     Compliance (7/27/98)
Years 1997 and 1996: Fund
Balance with Treasury               97054038 Payroll Payee
                                    Verification (7/15/98)           98054001 Official
(9/30/98)
                                                                     Representation Contingency
                                    97068001 Selected Revenue        Funds, Fiscal Year 1997
053-98 Deobligation and                                              (8/19/98)
Reobligation of Operation and       Accounts, Depot Maintenance
Maintenance, Navy Funds             Activity Group, Air Force
                                    Working Capital Fund, Fiscal     98054002 Confidential
(9/30/98)                                                            Investigative Contingency
                                    Year 1997 (5/27/98)
                                                                     Funds, Fiscal Year 1997
Air Force Audit Agency                                               (9/18/98)
                                    97068002 Selected Supply
96054040 Civilian Overtime          Management Activity Group        98054006 Equipment
Management (6/15/98)                Accounts, Air Force Working      Inventory, Multiple Status,
                                    Capital Fund, Fiscal Year 1997   Utilization Reporting Subsystem
96062025 Depot Overtime and         (9/15/98)                        Financial Controls (9/9/98)
Leave Use (6/15/98)
                                    97068003 Selected Revenue,       98054010 Audit Assessment
97053001 Accounting for             Accounts Receivable, and Fund    for the Fiscal Year 1998 Annual
Selected Assets and Liabilities,    Balance Accounts, Airlift        Statement of Assurance on the
Fiscal Year 1997 Air Force          Services Division, Defense       Status of Internal Controls
Consolidated Financial              Working Capital Fund, Fiscal      (9/8/98)
Statements (9/3/98)                 Year 1997 (7/6/98)
                                                                     98066011 Application Controls
97053003 Inventory and              97068017 Compliance with         within the Defense Material
Related Property, Fiscal Year       Federal Financial Accounting     Utilization and Disposition
1997 Air Force Consolidated         Standards Numbers 1 and 3        Program Management System
Financial Statements (8/20/98)      (9/15/98)                        (8/4/98)


                                                  A-7
Appendix A                                                         Semiannual Report to the Congress


                                                                      98-169 DoD Year 2000
HEALTH CARE                      INFORMATION                          Computing Problem Reports:
                                 TECHNOLOGY                           Lessons Learned from the
                                                                      Defense Integration Support
IG, DoD                          RESOURCES                            Tools Database (6/29/98)
98-136 Military Health System                                         98-173 U.S. Central Command
Utilization Management                                                Year 2000 Issues (7/2/98)
Program at Medical Centers       IG, DoD
(5/26/98)                                                             98-180 Ballistic Missile
                                 98-111 Year 2000 Initiatives at
                                 the Defense Finance and              Defense Organization Year
98-163 Accountability and                                             2000 Initiatives (7/16/98)
Inventory Levels of Air Force    Accounting Service Cleveland
Medical War Reserve Material     Center (4/16/98)
                                                                      98-182 Year 2000 Program at
at Fort Worth, Texas (6/24/98)                                        the Defense Advanced Research
                                 98-112 Year 2000 Reporting           Projects Agency (7/31/98)
98-168 DoD Implementation of     for Defense Finance and
the National Practitioner Data   Accounting Service Cleveland         98-184 Management of the
Bank Guidelines (6/26/98)        Center Systems (4/17/98)             Defense Information Systems
                                                                      Agency Year 2000 Program
Army Audit Agency                98-127 Information Assurance         (8/4/98)
AA 98-238 Audit of Military      of the Defense Civilian
                                 Personnel Data System -- Navy        98-187 Year 2000 Computing
Health System Utilization                                             Problems at Air Force Major
Management Program at            (4/29/98)
                                                                      Range and Test Facilities
Medical Centers (5/22/98)                                             (8/14/98)
                                 98-129 U.S. Special Operations
AA 98-252 Followup Audit of      Command Year 2000 Issues             98-188 U.S. Space Command
Psychiatry Services Contract,    (5/8/98)                             Year 2000 Issues (8/18/98)
William Beaumont Army
Medical Centers (6/19/98)        98-135 Implementation of the         98-193 Evaluation of the
                                 Defense Property                     Defense Megacenters Year 2000
AA 98-287 Emergency Room         Accountability System                Program (8/25/98)
Operations, Ireland Army         (5/18/98)
Community Hospital, Fort                                              98-194 U.S. Atlantic Command
Knox, Kentucky (8/10/98)                                              Year 2000 Issues (8/27/98)
                                 98-143 Information Assurance
AA 98-288 Emergency Room         for the Defense Civilian             98-196 Navy Special Access
Operations, Moncrief Army        Personnel Data System --             Program Community
Community Hospital, Fort         Washington Headquarters              Preparation for Year 2000
Jackson, South Carolina          Services (6/3/98)                    Compliance (FOR OFFICIAL
 (8/10/98)                                                            USE ONLY) (8/28/98)
                                 98-147 Year 2000 Certification
AA 98-294 Emergency Room         of Mission-Critical DoD              98-203 Naval Research
Operations, Evans Army           Information Technology               Laboratory Preparation for Year
Community Hospital, Fort         Systems (6/5/98)                     2000 (9/18/98)
Carson, Colorado (8/10/98)
                                                                      98-206 Air Force Special
                                 98-150 Readiness of the              Access Program Community
Air Force Audit Agency           Defense Message System to            Preparations for Year 2000
97051037 Air Force Reserve       Replace the Automatic Digital        Conversion (CLASSIFIED) (9/
Command Hearing                  Network (6/11/98)                    22/98)
Conservation Program (9/3/98)
                                 98-157 Updating the Foreign          98-207 Year 2000 Contract
98051017 Risk Assessment         Disclosure and Technical             Language for Weapon Systems
Codes (8/31/98)                  Information System (6/17/98)         (9/22/98)


                                               A-8
Semiannual Report to the Congress                                                         Appendix A


98-211 Communications               Air Force Audit Agency
Capability for Patriot Missile                                       INTELLIGENCE
Battalions (CLASSIFIED)             97054015 Followup Audit,
(9/24/98)                           Emergency Telephone and
                                    Response Centers (4/21/98)       IG, DoD
98-218 Year 2000 Initiatives at
the Naval Air Warfare Center --     97058040 Video                   98-124 Department of Defense
Aircraft and Weapons Divisions,     Teleconferencing Systems         Adjudication Program (4/27/98)
and the Atlantic Undersea Test      (9/15/98)
and Evaluation Center (9/30/98)                                      Army Audit Agency
                                    97066028 Information             AA 98-206 Foreign Military
Army Audit Agency                   Protection Metrics and           Sales, U.S. Army Aviation and
                                    Measures Program (6/22/98)       Missile Command, Redstone
AA 98-165 Year 2000
Compliance for Special                                               Arsenal, Alabama (9/10/98)
                                    97066030 Information
Programs (CLASSIFIED)               Assurance for the Defense
(4/2/98)                                                             AA 98-272 Utilization of
                                    Civilian Personnel Data System   Secure Facilities (7/13/98)
                                    at Air Force Locations
AA 98-199 Year 2000                  (6/22/98)
Compliance for Special                                               Naval Audit Service
Programs (CLASSIFIED)                                                034-98 Special Operations
                                    97066033 Information
(5/6/98)                                                             Fund (CLASSIFIED) (5/1/98)
                                    Protection -- Implementing
                                    Controls Over Known
AA 98-200 Year 2000
                                    Vulnerabilities in Air Combat
Compliance for Special
Programs (CLASSIFIED)
                                    Command Computers (5/19/98)      LOGISTICS
(6/24/98)
                                    97066036 System Assessments
                                    for the Year 2000 Program        IG, DoD
AA 98-201 Year 2000
Compliance for Special              (5/21/98)
                                                                     98-114 Fuel War Reserves for
Programs (CLASSIFIED)                                                the European Theater
(6/15/98)                           98066012 Information
                                                                     (CLASSIFIED) (4/16/98)
                                    Protection Over Air Force
AA 98-208 Year 2000                 Satellite Control Network
                                                                     98-117 Ammunition War
Compliance for Special              Computers (CLASSIFIED)
                                                                     Reserves for U.S. Forces, Korea
Programs (CLASSIFIED)               (4/16/98)
                                                                     (CLASSIFIED) (4/23/98)
(5/19/98)
                                    98066015 Air Force               98-126 Economic Distribution
AA 98-225 Requirements for          Workstation Program (9/9/98)     of Distilled Spirits within DoD
Unit-Level Logistics System                                          (4/30/98)
(6/1/98)                            98066022 Operating Systems
                                    Security Over Air Force          98-140 Defense Hotline
AA 98-265 Security of Total         Satellite Control Network        Allegation on Bunker Fuel
Asset Visibility (6/30/98)          Computers -- Onizuka Air         Purchases at Naples, Italy
                                    Station (CLASSIFIED)             (5/28/98)
AA 98-274 Information               (9/30/98)
Systems Security, Yuma                                               98-141 DoD Contract Ship
Proving Ground, Yuma, Arizona       98066032 United States           Fuels (Bunker Fuels)
(7/16/98)                           Transportation Command Year      Acquisition Process (5/29/98)
                                    2000 Issues (9/25/98)
AA 98-313 Year 2000                                                  98-144 Dual Management of
Compliance for Special              98066033 United States           Commercially Available Items -
Programs (CLASSIFIED)               Strategic Command Year 2000      - Information and Imaging
(8/25/98)                           Issues (9/29/98)                 Solutions (6/3/98)


                                                 A-9
Appendix A                                                        Semiannual Report to the Congress


98-154 Acquisition of Medical    Army Audit Agency                   037-98 Management of
Items (6/15/98)                                                      Sponsor Material at Naval Air
                                 AA 98-161 Logistical Systems        Systems Command Warfare
98-155 Depot Source of Repair    in Support of Special Programs      Centers (6/2/98)
Code (6/16/98)                   (CLASSIFIED) (4/1/98)
                                                                     050-98 Interim Supply Support
                                 AA 98-168 Ammunition                (9/25/98)
98-165 Modifications to the
                                 Management, 75th Ranger
Tube-Launched, Optically
                                 Regiment (Airborne), Fort           Air Force Audit Agency
Tracked, Wire-Command
                                 Benning, Georgia (4/17/98)
Missile Launcher for the
Bradley Fighting Vehicle                                             96062004 Acquisition Strategy
(6/25/98)                        AA 98-170 Unit-Level                for Aircraft Maintenance
                                 Logistics System -- Ground          Contractor Logistics Support
                                 (4/29/98)                           Operations (9/10/98)
98-170 Army National Guard
and U.S. Army Reserve                                                96062029 Financial
Command Small Arms Indoor        AA 98-185 Aviation
                                 Maintenance, 25th Infantry          Management of Aircraft
Firing Ranges (6/30/98)                                              Maintenance Contractor
                                 Division (Light) and U.S. Army
                                 Hawaii, Schofield Barracks,         Logistics Support Operations
98-174 Unit Chemical and         Hawaii (5/4/98)                     (6/29/98)
Biological Defense Readiness
Training (7/17/98)               AA 98-187 Project Manger-           97051001 Aircraft Battle
                                 Owned Assets, U.S. Army             Damage Repair Training
98-179 Audit of Military         Communications-Electronics          Aircraft (4/7/98)
Department Materiel Returns to   Command, Fort Monmouth,
the Defense Logistics Agency     New Jersey (4/27/98)                97051005 Airman Leadership
Distribution Depots (7/13/98)                                        Training (7/15/98)
                                 AA 98-202 Depot-Level
98-183 Training and Doctrine     Maintenance Workload                97058044 Unit Type Code
Command Services and Support     Reporting (6/1/98)                  Deployment Planning (4/6/98)
Provided to Members and
Employees of Congress            AA 98-250 Initial Spares            97061009 Laboratory
(8/7/98)                         (7/30/98)                           Equipment Loaned to
                                                                     Nongovernment Activities
98-190 Property Management       AA 98-285 Reforming                 (7/5/98)
Controls at Defense              Ammunition Procurement --
Reutilization and Marketing      Phase II (8/27/98)                  97061011 Fighter Aircraft
Office, Vandenberg, California                                       Spare Engine Computations
(8/19/98)                        AA 98-319 Ammunition                (8/5/98)
                                 Management (CLASSIFIED)
98-195 Valuation and             (8/27/98)                           97061025 Standard Repair
Presentation of Inactive                                             Cycle Times and Stock Level
Inventory on the FY 1997         AA 98-320 Ammunition                Days in Support of Lean
Defense Logistics Agency         Management, 160th Special           Logistics (9/30/98)
Working Capital Fund Financial   Operations Aviation Regiment
Statements (8/27/98)             (Airborne), Fort Campbell,          97061032 Beddown Locations
                                 Kentucky (9/8/98)                   Used in Fighter Aircraft Spare
98-202 Dual Management of                                            Engine Computations (6/4/98)
Commercially Available Items -   Naval Audit Service
- Construction, Material                                             97062003 Depot Maintenance
Handling, and Related            032-98 Business Practices at        Laboratory Operations
Equipment (9/18/98)              Naval Aviation Depots (4/3/98)      (6/24/98)


                                              A-10
Semiannual Report to the Congress                                                        Appendix A


97062004 Air Mobility               98-156 Joint Professional       AA 98-263 The Army Ten-
Command En Route                    Military Education Phase II     Miler, U.S. Army Military
Maintenance Operations              (6/16/98)                       District of Washington, Fort
(6/26/98)                                                           Lesley J. McNair, Washington,
                                    Army Audit Agency               DC (6/24/98)
97062005 Aircraft
Modification Budgeting Process                                      AA 98-266 Army and Air Force
                                    AA 98-156 Review of Title XI    Civilian Welfare Fund --
(9/15/98)                           Support to the Total Army       Auditor’s Report (6/30/98)
                                    School System, U.S. Army
97062018 Foreign Military           Training and Doctrine           AA 98-281 Tables of
Sales Dedicated Training            Command, Fort Monroe,           Organization and Equipment
Program Costs (8/28/98)             Virginia (4/22/98)              (8/26/98)
97062020 Maintenance                                                AA 98-305 Reengineering
Analysis Program (7/31/98)          AA 98-188 Army and Air Force
                                                                    Overhead Support for Morale,
                                    Civilian Welfare Fund --
                                                                    Welfare, and Recreation
                                    Auditor’s Report (4/27/98)
98058023 Airlift and Air                                            Activities, Fort Stewart, Georgia
Refueling Aircraft Flying Hour                                      (8/25/98)
Programs (8/31/98)                  AA 98-223 Farming Operation,
                                    101st Airborne Division (Air    Air Force Audit Agency
98062007 Followup Audit,            Assault) and Fort Campbell,
                                                                    97051010 Equal Opportunity
Maintenance of J69 and J85 Jet      Fort Campbell, Kentucky         Compliant Programs (8/28/98)
Engines in Air Education and        (5/22/98)
Training Command (7/1/98)                                           97051011 Prime Readiness in
                                    AA 98-246 Reengineering         Base Services Training
98062008 Followup Audit,            Overhead Support for Morale,    (8/18/98)
Implementation of the Aircraft      Welfare, and Recreation
Programmed Depot                    Activities, Aberdeen Proving    98051029 Base Capital
Maintenance Fixed Price             Ground, Aberdeen, Maryland      Improvement Fund Facility
Concept (4/13/98)                                                   Investments (8/25/98)
                                    (6/12/98)

                                    AA 98-247 Management            AUDIT OVERSIGHT
QUALITY OF LIFE                     Controls Dragon Hill Lodge,
                                    Seoul, Korea (6/16/98)          REVIEWS
IG, DoD
                                    AA 98-255 FY 97 Validation --   IG, DoD
98-142 Nondeployable Reserve        Demonstration Project for
                                    Uniform Funding of Morale       PO 98-6-013 Defense Contract
Component Personnel (6/1/98)                                        Audit Agency Reviews of Price
                                    Welfare and Recreation
                                    Activities (6/26/98)            Proposals (6/18/98)
98-145 U.S. Military Entrance
Processing Command (6/3/98)                                         PO 98-6-016 Defense Contract
                                    AA 98-258 Army Workload         Audit Agency Audits of Indirect
98-153 Accidental Off-Duty          and Performance System in       Costs at Major Contractors
Deaths in DoD (6/15/98)             Maintenance Depots (7/31/98)    (8/6/98)




                                                 A-11
Appendix A                                        Semiannual Report to the Congress




     Our report on the status of OIG, DoD reports over 12 months old in
     which management decisions have been made but final action has not
     been taken has been provided to the Department and is available upon
     request.




                                    A-12
Semiannual Report to the Congress                                                                Appendix B




                               APPENDIX B*
         INSPECTOR GENERAL, DoD, AUDIT REPORTS ISSUED CONTAINING
               QUANTIFIABLE POTENTIAL MONETARY BENEFITS

                                                                           Potential Monetary Benefits
                                                                                ($ In thousands)

                                                                           Disallowed       Funds Put to
                   Audit Reports Issued                                      Costs1          Better Use

98-109 Relocation of the System Program Office and                            N/A                $28,600
Logistics Support for the F-117A Stealth Fighter (4/10/98)
98-114 Fuel War Reserves for the European Theater (U)                         N/A                248,700
(4/16/98)
98-128 Contract Support Services for the Office of the                        N/A                   588
Assistant to the Secretary of Defense (Nuclear and
Chemical and Biological Defense Programs (5/6/98)
98-138 Management of Resources at the DoD Electronic                          N/A                  1,540
Commerce Office (5/27/98)
98-145 U.S. Military Entrance Processing Command                              N/A                 27,400
(6/3/98)
98-154 Acquisition of Medical Items (6/15/98)                                 N/A                 48,000
98-155 Depot Source of Repair Code (6/15/98)                                  N/A                   500
98-156 Joint Professional Military Education Phase II                         N/A                  3,600
(6/16/98)
98-163 Accountability and Inventory Levels of Air Force                       N/A                  1,600
Medical War Reserve Material at Fort Worth, Texas
(6/24/98)
98-172 Contract Terminations at Defense Supply Center                         N/A                 36,400
Columbus and Defense Supply Center Richmond (7/2/98)
98-179 Audit of Military Department Materiel Returns to                       N/A                 13,200
the Defense Logistics Agency Distribution Depots(7/13/98)
98-199 Defense Base Realignment and Closure Budget                            N/A                  7,400
Data for Modernization of Building 196, Washington Navy
Yard, Washington, DC (9/11/98)
Totals                                                                         0               $417,528
     *Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6).
     1
     There were no OIG audit reports during the period involving disallowed costs.



                                                       B-1
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                                    B-2
Semiannual Report to the Congress                                                                    Appendix C



                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES




        DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                                ($ in thousands)

                                                   Number Funds  Put to
                         Status                             Better Use
 A.   For which no management decision had been made by the                                  35    $2,125,700
      beginning of the reporting period.
 B.   Which were issued during the reporting period.                                         118      417,528
      Subtotals (A+B)                                                                        153    2,543,228
 C.   For which a management decision was made during the reporting
      period.                                                                                112    2,272,328
         (i)    dollar value of recommendations that were agreed to by
                management                                                                          1,805,265
                  - based on proposed management action                                             1,805,265
                  - based on proposed legislative action                                                    0
         (ii)   dollar value of recommendations that were not agreed to by
                management                                                                           467,063
 D.   For which no management decision has been made by the end of the
      reporting period.                                                                      41      270,900
      Reports for which no management decision was made within 6
      months of issue (as of March 31, 1998).2                                                1            0

      1There
            were no OIG audit reports during the period involving questioned costs.
      2OIG Report No. 98-073, “DFAS Work on the Navy General Fund 1996 Financial Statements,”
        February 2, 1998. Also, one Army Audit Agency report (No. 97-188, “Audit of the FY 1996 Army
        Defense Business Operations Fund Statements Summary Report,” May 16, 1997) and two Navy Audit
        Service Reports (No. 006-98, “Department of the Navy Fiscal Year 1996 Annual Financial Report
        Accounts Payable and Accrued Payroll and Benefits,” November 14, 1997; and No. 015-98,
        “Department of the Navy Fiscal Year 1996 Annual Financial Report: Department of Defense Issues,”
        December 12, 1997) have been issued for which no management decision was made within 6 months of
        issuance. These four reports are being mediated.




*Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).




                                                        C-1
Appendix C                                                                   Semiannual Report to the Congress




                   STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                     ($ in thousands)
                                                 Number of Questioned Funds Put to
                    Status of Action              Reports    Costs     Better Use
  IG, DoD
  Action in Progress - Beginning of Period                             263                              $221,579
  Action Initiated - During Period                                     112                              1,805,265
  Action Completed - During Period                                     103                              2,017,981
  Action in Progress - End of Period                                   272                                167,4121
  Military Departments
  Action in Progress - Beginning of Period                             356                              7,881,883
  Action Initiated - During Period                                     175                              1,330,961
  Action Completed - During Period                                     158                                797,981
  Action in Progress - End of Period                                   373                              8,358,114

      1Oncertain reports (primarily from prior periods) with audit estimated monetary benefits of $286 million, it
        has been agreed that the resulting monetary benefits can only be estimated after completion of
        management action, which is ongoing.




                                                       C-2
Semiannual Report to the Congress                                                                    Appendix D




                                           APPENDIX D
                             CONTRACT AUDIT REPORTS ISSUED1
                                         ($000 in millions)
                                                              Audit                            Funds Put to
      Type of Audit           Reports Issued     Examined   Exceptions                          Better Use
 Incurred Costs                        19,403               $57,423.4           $1,197.6               $424.72
 Forward Pricing Proposals              5,558                45,667.9                 --              2,327.5
 Cost Accounting                        2,519                    66.6               74.2                   --
 Standards
 Defective Pricing3                       917                      0                80.9                   --
 Other4                                     2                      0                  --                   --
 Totals                                28,399             $103,157.9            $1,352.7             $2,752.2

    1Because
              of limited time between availability of management informaltion system data and legislative
       reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of reported
       data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
    2Incurred cost funds put to better use are from the cost avoidance recommended in operations audits.
    3Defective pricing dollars examined are not reported because they are considered a duplication of forward

       pricing dollars reported as examined.
    4Relates to suspected irregular conduct cases.




                      Waivers of Advisory and Assistance Service Contracts
       A review of each waiver made by the Department to any person for contracts for advisory
       and assistance services with regard to the test and evaluation of a system if that person
       participated in (or is participating in) the development, production or testing of such
       system for a Military Department or Defense Agency (or for another contractor of the
       Department of Defense). This review is required by Section 802, Defense Authorization
       Act for Fiscal Year 1990.

       The Department made no waivers during the period and therefore, no reviews were made
       by the OIG.




                                                      D-1
Appendix D                                        Semiannual Report to the Congress




             This page left blank intentionally




                            D-2
         The Joseph H. Sherick Award
The Joseph H. Sherick Award, named after the first DoD Inspector
General, is presented annually. The award recognizes the actions and
accomplishments of an individual that most strongly support and
foster the mission and functions of the OIG. Mr. Robert M. Bryant,
Deputy Director, Federal Bureau of Investigation, received the award
from the Inspector General on October 29, 1998. The citation for the
award follows:

Mr. Robert M. Bryant is awarded The Joseph H. Sherick Award for
his dedication to the ideals of law enforcement. He is an effective
proponent of the Inspector General system and is instrumental in                Mr. Robert M. Bryant
supporting the OIG in our mission to combat fraud, waste and abuse in
the DoD. Mr. Bryant is a strong proponent of Inspector General involvement in joint law enforcement
investigations. While a Special Agent in Charge of the Salt Lake City and Washington Metropolitan Field
Offices, He was in the forefront of the Federal, state and local law enforcement community and, as such,
took the lead in initiating numerous successful joint FBI–DCIS investigations and projects. For over 18
years, Mr. Bryant has also been instrumental in the sharing of FBI expertise and facilities in the training of
DCIS members of the Inspector General, DoD community. He fostered active joint FBI–DCIS working
relationships that successfully targeted and stopped the illegal diversion of DoD property, resources and
technology and resulted in hundreds of criminal indictments and the recovery of millions of dollars in
Government funds, material and property.

Mr. Bryant earned a Bachelor of Science Degree in Business Administration in 1965 and a law degree in
1968 from the University of Arkansas. Mr. Bryant received an appointment as a Special Agent of the FBI
in 1969, and was later assigned to the Seattle, Washington office. He was transferred to the Dallas, Texas
office where he remained until 1975, when he was ordered to FBI Headquarters in Washington, D.C.,
where he served as a supervisor in the Criminal Investigative and Records Management Division until his
assignment to the Planning and Inspection Division in 1977. In 1978, he assumed supervisory
responsibilities in the Los Vegas, Nevada, office.

Mr. Bryant was designated Assistant Special Agent in Charge of the Kansas City, Missouri, office in 1980,
and became a Permanent Inspector in 1984. He was later designated Acting Chief Inspector. In 1985, He
was transferred to the Salt Lake City office as Special Agent in Charge and, in 1989, was appointed Deputy
Assistant Director of the Criminal Investigative Division in Washington, D.C. In 1991, Mr. Bryant was
named Special Agent in Charge of the Washington Metropolitan Field Office. He was designated Assistant
Director of the National Security Division in 1993, and in 1997 assumed the position of Assistant Director
of the Criminal Investigative Division. Director Freeh appointed him Deputy Director of the FBI in
October 1997.

Mr. Bryant is widely recognized as a distinguished law enforcement leader who serves as a mentor to both
FBI members and Special Agents working within the OIG, DoD organization. Mr. Bryant's courage, honor
and commitment to fostering cooperative and successful joint relationships between the DCIS and the FBI
bring great credit upon himself, the FBI and the Department of Justice.
